Semiannual Report
to Congress
April 1, 2013 – September 30, 2013
OIG-CA-14-003

Office of Inspector General
Department of the Treasury
Highlights
During this semiannual reporting period, our Office of Audit issued 21 products and our Office of
Small Business Lending Fund (SBLF) Program Oversight issued 8 products. The two Offices also
identified $33.2 million in monetary benefits. Work by our Office of Investigations resulted in 14 arrests
and 22 convictions. Some of these results are described below.

• Our Office of Audit found that Treasury did not meet a key statutory requirement to establish
   procedures for administration of the Gulf Coast Restoration Trust Fund (Trust Fund) within 180
   days after enactment of the Resources and Ecosystems Sustainability, Tourist Opportunities, and
   Revived Economies of the Gulf Coast States Act of 2012 (RESTORE Act) (by January 2, 2013). In
   a subsequent audit, we found Treasury’s Bureau of the Fiscal Service established the Trust Fund and
   was able to receive the first deposit in March 2013. However, as of June 12, 2013, Treasury had not
   established procedures necessary to expend amounts from the Trust Fund, or developed an
   investment strategy that takes into account projected outlays from the Trust Fund. After the
   completion of our audit fieldwork, Treasury published the draft procedures in the Federal Register,
   in the form of proposed regulations, for public comment.
• The Office also reported that the Bureau of Engraving and Printing did not properly administer a
   2006 contract with Young & Rubicam, Inc., doing business as Burson-Marsteller for which it spent
   $33 million. Deficiencies included: (1) missing contract documentation; (2) inadequate subcontractor
   oversight; (3) no evidence of price negotiations for certain task orders; (4) non-compliance with the
   Federal Acquisition Regulation in soliciting, awarding, and administering the task order for materials
   fulfillment; (5) a lax process for approving payments; and (6) improper contracting officer’s
   representative contact with the contractor when developing government cost estimates.
• Treasury reported that institutions participating in SBLF had increased their small business lending
   by $8.9 billion. However, our Office of SBLF Oversight found that approximately $3.4 billion of
   this amount occurred prior to when most participants received their SBLF funds, and Treasury
   could not identify how much of the gains reported by participants were attributable to the SBLF
   funding. In another audit, the SBLF Office found that the State of Missouri properly used over
   96 percent of the $7.3 million in State Small Business Credit Initiative funds it expended, and all
   related administrative costs were compliant with program requirements. However, the Office
   identified a $240,000 venture capital investment that constituted a reckless misuse of funds, as
   defined by Treasury guidance.
• Our Office of Investigations opened an investigation after receiving information indicating that a
   former bank teller abused her position, negotiating 28 stolen U.S. Treasury checks worth $109,818.
   The individual pled guilty and was sentenced to 15 months’ incarceration in federal prison to be
   followed by 3 years of supervised release, 50 hours of community service, and an order to make
   restitution to Treasury in the amount of $54,614 and to the Georgia Department of Revenue in the
   amount of $23,566.

The Council of Inspectors General on Financial Oversight convened a working group led by Treasury
Inspector General Thorson to audit the Financial Stability Oversight Council’s (FSOC) designation of
financial market utilities (FMU) as systemically important. The working group found that FSOC did not
establish a formal structure for its Financial Market Utilities and Payment, Clearing, and Settlement
Activities Committee and that FSOC did not consider the systemic designation for foreign-based FMUs;
retail FMUs; or financial institutions’ payment, clearing, and settlement activities.

       Treasury Office of Inspector General Semiannual Report—September 2013                             i
Message from the Inspector General
I am pleased to present the Treasury Office of Inspector General’s Semiannual Report to Congress for
the six-month period ending September 30, 2013. The audits, reviews, and investigations described in
this report illustrate our office’s commitment to promoting the integrity, efficiency, and effectiveness of
Treasury programs and operations under our jurisdictional oversight.

One such commitment is our responsibility for conducting audits and investigations of projects and
activities authorized by the Resources and Ecosystems Sustainability, Tourist Opportunities, and
Revived Economies of the Gulf Coast States Act of 2012 (RESTORE Act). The act established the Gulf
Coast Restoration Trust Fund (Trust Fund) within Treasury. The Trust Fund will be funded from
80 percent of the administrative and civil penalties paid by responsible parties in connection with the
April 2010 Deepwater Horizon disaster. The purpose of the Trust Fund is to support the environmental
and economic restoration of the Gulf Coast region. To that end, we are actively engaged in
(1) coordinating with impacted federal, state, and local government entities to ensure effective oversight
of programs established by the act; (2) assessing Treasury’s progress in establishing procedures to
distribute monies from and manage investments in the Trust Fund; and (3) assessing the Gulf Coast
Ecosystem Restoration Council’s (Council) establishment of a Comprehensive Plan and infrastructure.
During this period, we completed two audits of Treasury’s RESTORE Act activities, which are
summarized in this Semiannual Report.

To meet our oversight responsibilities under the RESTORE Act, and without additional funding, we
have reallocated existing resources. For example, in fiscal year 2013, we established a dedicated audit
directorate to support this effort. Additionally in fiscal year 2013, we requested and Congress approved
the reprogramming of $659 thousand of fiscal year 2012 lapsed appropriations which we used to train
staff, perform essential travel, and contract for expert reviews of the environmental and economic
feasibility of the Council’s Comprehensive Plan as well as for assistance in completing a risk analysis of
RESTORE Act funds. We appreciate the support by the Congress to obtain these resources. Looking
forward to fiscal year 2014, the President’s budget request includes $2.8 million in additional funding for
our RESTORE Act oversight responsibilities.

In closing, I think it is important to acknowledge Treasury Office of Inspector General staff for their
continued dedication to the work and mission of our office. I want to express my appreciation to John
Phillips, Acting Assistant Inspector General for Investigations, for providing stability and leadership to
investigations staff as the office undergoes a change in senior management. I also want to recognize
Marla Freedman, Assistant Inspector General for Audit, who in May 2013 received the Treasury Office
of Inspector General Leadership Award for her commitment to excellence to both the work of our
office and that of the entire Inspector General Community.



Eric M. Thorson
Inspector General


        Treasury Office of Inspector General Semiannual Report—September 2013                           ii
This page intentionally left blank
Contents
Highlights ...................................................................................................................................i
Message from the Inspector General ......................................................................................ii
Office of Inspector General Overview .....................................................................................1
Treasury’s Management and Performance Challenges .........................................................3
Office of Audit – Significant Audits and Other Products .......................................................5
      Programs and Operations ............................................................................................................................5
      Financial Management ...............................................................................................................................15
Office of SBLF Program Oversight – Significant Audits......................................................17
      Small Business Lending Fund....................................................................................................................17
      State Small Business Credit Initiative.........................................................................................................19
Office of Investigations – Significant Investigations ...........................................................24
Other OIG Accomplishments and Activity ............................................................................29
Statistical Summary ...............................................................................................................35
      Summary of OIG Activity ............................................................................................................................35
      Significant Unimplemented Recommendations ..........................................................................................36
      Summary of Instances Where Information Was Refused...........................................................................37
      Listing of Audit Products Issued .................................................................................................................38
      Audit Reports Issued With Questioned Costs ............................................................................................40
      Audit Reports Issued With Recommendations That Funds Be Put to Better Use ......................................41
      Previously Issued Audit Reports Pending Management Decisions (Over 6 Months) .................................41
      Significant Revised Management Decisions ..............................................................................................41
      Significant Disagreed Management Decisions ...........................................................................................42
      Peer Reviews .............................................................................................................................................42
Bank Failures and Nonmaterial Loss Reviews .....................................................................43
References to the Inspector General Act ..............................................................................44
Abbreviations..........................................................................................................................45
Representing Treasury History..............................................................................................46


          Treasury Office of Inspector General Semiannual Report—September 2013                                                                             iii
This page intentionally left blank.
Office of Inspector General Overview
The Department of the Treasury’s (Treasury) Office of Inspector General (OIG) was established
pursuant to the 1988 amendments to the Inspector General Act of 1978. OIG is headed by an Inspector
General appointed by the President, with the advice and consent of the Senate.

OIG performs independent, objective reviews of Treasury programs and operations, except for those of
the Internal Revenue Service (IRS) and the Troubled Asset Relief Program (TARP), and keeps the
Secretary of the Treasury and Congress fully informed of problems, deficiencies, and the need for
corrective action. The Treasury Inspector General for Tax Administration (TIGTA) performs oversight
related to IRS. A Special Inspector General and the Government Accountability Office perform
oversight related to TARP.

OIG has five components: (1) Office of Audit, (2) Office of Investigations, (3) Office of Small Business
Lending Fund (SBLF) Program Oversight, (4) Office of Counsel, and (5) Office of Management. OIG
is headquartered in Washington, D.C., and has an audit office in Boston, Massachusetts.

The Office of Audit, under the leadership of the Assistant Inspector General for Audit, performs and
supervises audits, attestation engagements, and evaluations. The Assistant Inspector General for Audit
has two deputies. One is primarily responsible for performance audits and the other is primarily
responsible for financial management, information technology (IT), and financial assistance audits.

The Office of Investigations, under the leadership of the Assistant Inspector General for Investigations,
performs investigations and conducts initiatives to detect and prevent fraud, waste, and abuse in
Treasury programs and operations under our jurisdiction. The Office of Investigations also manages the
Treasury OIG Hotline to facilitate reporting of allegations involving Treasury programs and activities.

The Office of SBLF Program Oversight, under the leadership of the Special Deputy Inspector General,
conducts, supervises, and coordinates audits and investigations of SBLF and the State Small Business
Credit Initiative (SSBCI).

The Office of Counsel, under the leadership of the Counsel to the Inspector General, provides legal
advice to the Inspector General and all OIG components. The office represents the OIG in
administrative legal proceedings and provides a variety of legal services including (1) processing
Freedom of Information Act and Giglio 1 requests; (2) conducting ethics training; (3) ensuring compliance
with financial disclosure requirements; (4) reviewing proposed legislation and regulations; (5) reviewing



1 Giglio is information that refers to material that may call into question the character or testimony of a prosecution witness in
a criminal trial.




         Treasury Office of Inspector General Semiannual Report—September 2013                                               1
                                                             Office of Inspector General Overview

administrative subpoena requests; and (6) preparing for the Inspector General’s signature, cease and
desist letters to be sent to persons and entities misusing the Treasury seal and name.

The Office of Management, under the leadership of the Assistant Inspector General for Management,
provides services to maintain the OIG administrative infrastructure.

OIG’s fiscal year 2013 appropriation is $28.1 million. As of September 30, 2013, OIG had 179 full-time
staff of which 19 of those staff work for the Office of SBLF Program Oversight and are funded on a
reimbursable basis.




       Treasury Office of Inspector General Semiannual Report—September 2013                           2
Treasury’s Management and Performance Challenges
In accordance with the Reports Consolidation Act of 2000, the Treasury Inspector General annually
provides the Secretary of the Treasury with his perspective on the most serious management and
performance challenges facing the Department. Inspector General Thorson was preparing the 2013
memorandum to Secretary Lew at the time this semiannual report was published. The following is a
synopsis of the matters that were included in the 2012 memorandum. The Inspector General’s annual
Management and Performance Challenges Memoranda are available, in their entirety, on the Treasury
OIG website.

Transformation of Financial Regulation (Repeat Challenge)
This challenge focuses on the responsibilities of Treasury and the Secretary under the Dodd-Frank Wall
Street Reform and Consumer Protection Act of 2010 (Dodd-Frank).

Management of Treasury’s Authorities Intended to Support and Improve the Economy
(Repeat Challenge)
This challenge focuses on the administration of broad authorities given to Treasury by the Congress to
address the financial crisis under the Housing and Economic Recovery Act of 2008, the Emergency
Economic Stabilization Act of 2008, the American Recovery and Reinvestment Act of 2009, and the
Small Business Jobs Act of 2010.

Anti-Money Laundering and Terrorist Financing/Bank Secrecy Act Enforcement (Repeat
Challenge)
This challenge focuses on the difficulties Treasury faces to ensure criminals and terrorists do not use our
financial networks to sustain their operations and/or launch attacks against the U.S.

Gulf Coast Restoration Trust Fund Administration
This challenge focuses on Treasury’s administration of a new activity, the Gulf Coast Restoration Trust
Fund, established by the Resources and Ecosystems Sustainability, Tourist Opportunities, and Revived
Economies of the Gulf Coast States Act of 2012 (RESTORE Act) in response to the April 2010
Deepwater Horizon disaster.

Other Areas of Concern
Our memorandum also highlighted three areas of concern—cyber threats, challenges with currency and
coin production, and lapses by the Department in maintaining a complete and concurrent record of key
activities and decisions.


       Treasury Office of Inspector General Semiannual Report—September 2013                           3
                                        Treasury’s Management and Performance Challenges

We also noted challenges faced by the Department as it undertakes the consolidation and restructuring
of the Bureau of the Public Debt and Financial Management Service into the Bureau of the Fiscal
Service (BFS).




       Treasury Office of Inspector General Semiannual Report—September 2013                       4
                                        Office of Audit – Significant Audits and Other Products


Office of Audit – Significant Audits and Other Products
Programs and Operations

RESTORE Act Audits
During this semiannual reporting period, we issued two audit reports on the programs and activities
established under the RESTORE Act. The act put the Gulf Coast Restoration Trust Fund (Trust Fund)
within Treasury for the purpose of providing funds for the environmental and economic restoration of
the Gulf Coast region damaged by the April 2010 Deepwater Horizon oil spill. Pursuant to a court order or
negotiated settlement under the Federal Water Pollution Control Act, 80 percent of the administrative
and civil penalties paid after July 6, 2012, will be deposited into the Trust Fund. Expenditures from the
Trust Fund are to be used for restoring and protecting the natural resources, ecosystems, fisheries,
marine and wildlife habitats, beaches, coastal wetlands, and economies of the Gulf Coast states
(Alabama, Florida, Louisiana, Mississippi, and Texas) impacted by the oil spill.

The RESTORE Act provided that expenditures from the Trust Fund be used for specific purposes of
restoring and protecting the Gulf Coast region and allocated in the following manner:

      • 35 percent is to be distributed to the Gulf Coast states, in equal shares, for expenditure for
          ecological and economic restoration of the Gulf Coast region;
      • 30 percent is to be distributed to the Gulf Coast Ecosystem Restoration Council (Council)
          established by the RESTORE Act to carry out projects and programs in its Comprehensive
          Plan;
      • 30 percent is to be distributed to the Gulf Coast states under the oil spill restoration impact
          allocation based on a formula established by the Council pursuant to the RESTORE Act and
          the Council’s approval of the states’ plans for improving the ecosystems and economy of the
          Gulf Coast region;
      • 2.5 percent is to be distributed to the National Oceanic and Atmospheric Administration for
          the establishment and administration of the Gulf Coast Ecosystem Restoration Science,
          Observation, Monitoring, and Technology Program; and
      • 2.5 percent is to be distributed to the Gulf Coast states, in equal shares, exclusively for
          competitive grants to nongovernmental entities and consortia in the Gulf Coast region to
          establish centers for excellence to conduct research only on the Gulf Coast region.

The RESTORE Act provided our office with audit and investigative authority over programs, projects,
and activities funded by the Trust Fund.




       Treasury Office of Inspector General Semiannual Report—September 2013                          5
                                               Office of Audit – Significant Audits and Other Products

Treasury Missed Its Statutory Deadline for Establishing Procedures Governing RESTORE Act Programs
and Activities

Under the RESTORE Act, the Secretary of the Treasury was given administrative responsibilities to
establish procedures, in consultation with the Secretary of Commerce and the Secretary of the Interior,
for depositing amounts in and expending amounts from the Trust Fund including procedures for
determining compliance and auditing requirements of programs and activities established under the
RESTORE Act. The Secretary was also required to establish procedures for identifying and allocating
funds available to the Secretary under other provisions of law to pay the administrative expenses for
management of the Trust Fund.

We found that Treasury did not meet a key statutory requirement to establish procedures for Trust Fund
administration within 180 days after enactment of the RESTORE Act (by January 2, 2013). At the time
of our review, regulations had yet to be issued in draft for public comment due to delays in concluding a
consultative process with the Departments of Commerce and the Interior. Also, we were told that
certain matters with the administration of the Trust Fund were under review by the Office of
Management and Budget and the Department of Justice. Treasury experienced delays in concluding the
consultative process with the Departments of Commerce and the Interior. We recommended that the
Fiscal Assistant Secretary continue to work with the Department of Commerce, the Department of the
Interior, and the Office of Management and Budget to expedite the issuance of RESTORE Act
regulations. Treasury management agreed with our recommendation. (OIG-13-038)

Treasury Needs to Establish Procedures to Expend and Invest Gulf Coast Restoration Trust Fund
Monies

We found that BFS established the Trust Fund and was able to receive the first deposit in March 2013.
However, as of June 12, 2013, Treasury had not established procedures necessary to expend amounts
from the Trust Fund, or developed an investment strategy that takes into account projected outlays
from the Trust Fund. According to a Treasury official, Treasury planned to issue those procedures in
the form of regulations in September or October 2013. On September 6, 2013, subsequent to the
completion of our audit fieldwork, Treasury published the draft procedures in the Federal Register, in
the form of proposed regulations, for a 60-day public comment period. 2

To address these matters, we recommended that the Fiscal Assistant Secretary: (1) take necessary action
to establish regulations for the Trust Fund, and to finalize internal Treasury procedures for the Trust
Fund, (2) ensure that Treasury’s proposed regulations address how Treasury intends to meet the
requirements of 31 U.S.C. §9702 for investment of the Trust Fund, and (3) ensure that BFS, working
with the administrators of each Trust Fund Component, establishes an investment strategy that takes
into account projected outlays. Treasury management agreed with our recommendations. (OIG-13-052)


2   78 FR 54801, Gulf Coast Restoration Trust Fund



           Treasury Office of Inspector General Semiannual Report—September 2013                     6
                                                   Office of Audit – Significant Audits and Other Products

Failed Bank Reviews
In 1991, Congress enacted the Federal Deposit Insurance Corporation Improvement Act following the
failures of about a thousand banks and thrifts from 1986 to 1990. Among other things, the act added
Section 38, Prompt Corrective Action, to the Federal Deposit Insurance Act. Section 38 requires federal
banking agencies to take specific supervisory actions in response to certain circumstances. 3 Within
Treasury, the Office of the Comptroller of the Currency (OCC) is the regulator for national banks.
Effective July 21, 2011, OCC assumed the regulatory responsibility for federal savings associations that
were previously regulated by the former Office of Thrift Supervision (OTS).

Section 38 also requires the Inspector General for the primary federal regulator of a failed financial
institution to conduct a material loss review (MLR) when the estimated loss to the Deposit Insurance
Fund (DIF) is “material.” As part of an MLR, we determine the causes of the failure and assess the
supervision of the institution, including the implementation of the Section 38 Prompt Corrective Action
provisions. Section 38, as amended by Dodd-Frank Wall Street Reform and Consumer Protection Act
of 2010 (Dodd-Frank), defines a material loss as a loss to the DIF that exceeds $150 million for 2012
and 2013, and $50 million in 2014 and thereafter, with a provision for increasing the threshold to
$75 million under certain circumstances. Section 38 also requires a review of all bank failures with losses
under those threshold amounts for the purposes of (1) ascertaining the grounds identified by the
primary federal regulator for appointing the Federal Deposit Insurance Corporation (FDIC) as receiver,
and (2) determining whether any unusual circumstances exist that might warrant a more in-depth review
of the loss. This provision applies to bank failures from October 1, 2009, forward. 4

From the beginning of the economic crisis in 2007 through September 2013, FDIC and other banking
regulators closed 488 banks and thrifts. Treasury, through OCC and the former OTS, was responsible
for regulating 131 of those institutions. Of the 131 failures, 55 resulted in a material loss to the DIF, of
which we completed MLRs for 54 in prior semiannual reporting periods. There was one new failure of a
Treasury-regulated bank that required an MLR during this semiannual reporting period, which was in
progress at the end of the semiannual reporting period.

During this period, we completed 2 reviews of failed Treasury-regulated banks that did not meet the
material loss threshold as defined in Dodd-Frank: First Side Savings Bank, Tamarac, Florida (Estimated
Loss to the DIF - $12.3 million) and First Federal Bank, Lexington, Kentucky (Estimated Loss to the
DIF - $9.7 million). (OIG-13-043, OIG-13-045)


3 Prompt Corrective Action is a framework of supervisory actions for insured institutions that are not adequately capitalized.
It was intended to ensure that action is taken when an institution becomes financially troubled in order to prevent a failure or
minimize resulting losses. These actions become increasingly more severe as the institution falls into lower capital categories.
The capital categories are well-capitalized, adequately capitalized, undercapitalized, significantly undercapitalized, and critically
undercapitalized.
4 Prior to Dodd-Frank, an MLR was required if loss to the DIF from a bank failure exceeded the greater of $25 million or

2 percent of the institution’s total assets. There was also no requirement for us to review bank failures with losses less than
this threshold.



         Treasury Office of Inspector General Semiannual Report—September 2013                                                  7
                                         Office of Audit – Significant Audits and Other Products

Other Banking-Related Audits
Review of OCC Identification of Emerging Risks

During our MLRs, we found that OCC did not always identify and address emerging risks to financial
institutions in a timely manner. Accordingly, we performed an audit to determine how OCC identifies
emerging risks to financial institutions’ safety and soundness and then translates the risks identified into
action.

We found that while OCC had processes in place to identify emerging safety and soundness risks to
financial institutions and took actions to address those risks, OCC was unable to prevent the failure of
75 OCC-regulated banks between 2008 and May 2012. Many of the banks that failed during this
timeframe were susceptible to the same risks that gave rise to the bank failures of the 1980s and 1990s.
We noted that OCC issued guidance during September 2011 incorporating lessons learned from the
recent failures, which included the need to assign an adverse rating to bank management for poor or
missing risk management practices. With regard to current risks, OCC identified the reliance on fees and
exotic instruments as well as strategic risks associated with banks’ entry into new business products
posed the greatest risks to banks’ safety and soundness.

We recommended (1) OCC periodically assess the effectiveness of guidance it issued to ensure
examination staff are assigning management component ratings based on actions and results rather than
commitments, and that adverse ratings are appropriately assigned for poor or missing practices
identified in examinations; and (2) ensure that banks and examiners are responding appropriately to risks
identified such as over-reliance on fees and exotic instruments. OCC’s management response identified
corrective actions that met the intent of our recommendations. (OIG-13-037)

Improvement Needed in OCC’s Oversight of Foreclosure Related Consent Orders

In April 2011, OCC in conjunction with the Board of Governors of the Federal Reserve System (FRB)
and the former OTS issued consent orders against 14 major mortgage servicers for unsafe and unsound
practices in residential mortgage servicing and foreclosure processing. FRB later issued consent orders
against 2 additional servicers bringing the total of servicers subject to a set of consent orders to 16.
Among other things, the consent order required the servicers to implement an independent foreclosure
review (IFR) process using independent consultants to determine financial injury to affected borrowers.
We conducted an audit to assess OCC’s: (1) oversight of servicers’ efforts to comply with consent
orders; (2) determination of qualifications and independence of consultants hired by servicers in
accordance with consent orders; (3) oversight of consultants’ efforts to perform outreach, conduct file
reviews, and review homeowner claims of financial harm; and (4) oversight of the single integrated
claims process established by OCC, servicers, and the consultants.

We found that OCC had developed a framework to monitor servicers’ corrective action plans and
oversee the IFR process. However, we noted certain areas where OCC oversight needed strengthening.
Specifically, OCC had not performed comprehensive direct testing of individual IFRs to assess whether

        Treasury Office of Inspector General Semiannual Report—September 2013                            8
                                                Office of Audit – Significant Audits and Other Products

independent consultants were performing the reviews objectively, consistently, and in compliance with
OCC guidance. In addition, improvements were needed in the documentation of various aspects of
OCC oversight.

Subsequent to the completion of our fieldwork, OCC sought to end the IFR process because the
reviews were taking longer than anticipated and delaying compensation to affected borrowers. In
January 2013, OCC and FRB negotiated a change to the terms of the original consent orders with 13 of
the 16 servicers. Those amended orders were issued in February 2013. Amended consent orders were
issued for 10 of the 12 servicers under OCC supervision and 3 of the 4 servicers under FRB supervision.
The new terms provided for an immediate cessation of the IFR process, required that servicers make
direct cash payments to potentially harmed borrowers, and required servicers to initiate a range of
foreclosure relief actions. Three servicers, two of which were supervised by OCC, did not agree to
change their consent orders and were planning to continue the IFR process to completion.

We recommended that OCC (1) develop and implement examiner guidance defining the timing and
scope of OCC’s direct testing of individual foreclosure reviews at the two 5 OCC-supervised servicers
who are continuing the IFR process to ensure compliance and consistency, and (2) improve
documentation of OCC oversight activities. We consider the actions taken by OCC to be responsive to
our recommendations. (OIG-13-049)

Because of the changes that took place when OCC and FRB ended the foreclosure review process, we
are undertaking a separate audit to assess the events leading to and the decisions made to change the
terms of the consent orders, to include how the new settlement amounts were derived, and OCC’s
monitoring of servicer compliance with the amended consent orders.

Status of the Transfer of OTS Functions

During this semiannual period, our office issued its sixth joint review of the transfer, pursuant to
Title III of Dodd-Frank, of the functions, employees, funds, and property of the former OTS to FRB,
FDIC, and OCC. In accordance with Title III of the act, the transfer occurred in July 2011.

Our joint reviews are mandated by Section 327 of Title III of the act. During our first review, we
determined the Joint Implementation Plan (Plan) for the transfer prepared by FRB, FDIC, OCC, and
OTS generally conformed to relevant Title III provisions. Since then, in accordance with Section 327,
we have completed five joint reviews to report every 6 months on the status of the Plan’s
implementation. We jointly reported that the Plan was implemented for the most part, as the functions,
people, and property of OTS were transferred to FRB, FDIC, and OCC in accordance with Title III and
the Plan. We also reported that procedures and safeguards were in place at FDIC and OCC as outlined

5 In August 2013, OCC announced that one of the two servicers agreed to a change in its consent order that will effectively
end the IFR process for this servicer. Once the consent order is amended, recommendation number 1 will apply to the
remaining OCC-supervised servicer.




         Treasury Office of Inspector General Semiannual Report—September 2013                                          9
                                         Office of Audit – Significant Audits and Other Products

in the Plan to ensure that transferred employees are not unfairly disadvantaged, a key requirement in
Title III. However, there did remain certain open items and time-limited provisions impacting former
OTS employees that we continue to monitor. For this 6-month period, we concluded that FRB’s
implementation of section 318 of Dodd-Frank related to supervisory assessments was completed. Our
most recent joint report did not include any recommendations. (OIG-13-054)

Information Technology Audit
Fiscal Year 2013 Audit of Treasury’s Federal Information Security Management Act Implementation for
Intelligence Systems

The Federal Information Security Management Act requires each Inspector General to perform an
annual independent evaluation of their agency’s information security program and practices. For fiscal
year 2013, we determined that Treasury’s information security program and practices as they relate to its
intelligence systems are adequate, but improvements were needed. Due to the sensitive nature of these
systems, this report is classified. (OIG-13-048)

Other Performance Audits and Evaluations
BEP’s Administration of the Burson-Marsteller Public Education and Awareness Contract Was Deficient

We performed an audit of the Bureau of Engraving and Printing’s (BEP) contracting activities related to
the 2006 Public Education and Awareness Program contract with Young & Rubicam, Inc., doing
business as Burson-Marsteller, in response to concerns raised by FRB regarding BEP’s contracting
practices. The contract award to Burson-Marsteller was for 5 years with an initial ceiling of $36.2 million
which was raised over the contract period to $57.5 million. The contract was to assist BEP in
conducting the public education and awareness program for the introduction and release of the
redesigned, or NexGen, $5 and $100 notes. In total, BEP spent about $33 million for the contracted
services.

We found that BEP did not properly administer the 2006 contract with Burson-Marsteller. Deficiencies
included: (1) missing contract documentation; (2) inadequate subcontractor oversight; (3) no evidence of
price negotiations for certain task orders; (4) non-compliance with the Federal Acquisition Regulation in
soliciting, awarding, and administering the task order for materials fulfillment; (5) a lax process for
approving payments; and (6) improper contracting officer’s representative contact with the contractor
when developing government cost estimates. We also found that BEP did not address known
contracting problems, effectively manage acquisition personnel and staffing levels, nor implement
necessary policies and procedures.

To address these matters, we recommended that the Director of BEP (1) determine whether the
problems identified with the Burson-Marsteller contract are systemic to overall contracting practices and
constitute a reportable material weakness in program administration under Treasury’s Federal Managers
Financial Integrity Act process; (2) direct the BEP Office of Acquisitions to establish standard policies

       Treasury Office of Inspector General Semiannual Report—September 2013                           10
                                             Office of Audit – Significant Audits and Other Products

and procedures, train employees in the new policies and procedures, and implement an accountability
plan to ensure they are followed; (3) direct the Office to inventory all contract files, identify any missing
documents, and reconstruct the files as necessary; (4) implement accountability mechanisms to ensure
BEP executives and managers timely and comprehensively address deficiencies and recommendations
identified by internal and external reviews, such as acquisition assessments by the Treasury Office of
Procurement Executive; (5) direct the BEP Office of Compliance to increase the frequency and scope
of the monitoring of operational effectiveness, internal control, and compliance with laws and
regulations by the Office of Acquisitions; (6) ensure that staffing in the Office of Acquisitions is
commensurate with the BEP’s acquisition activities in light of a March 2013 transfer of non-
manufacturing activities to a Treasury shared service provider and work with the Treasury Office of
Procurement Executive to identify appropriate recruiting and retention strategies when faced with
acquisition staffing challenges; and (7) direct the Office of Acquisitions to determine whether
Burson-Marsteller made a good faith effort to comply with its subcontracting plan for the 2006 contract.
BEP concurred with our recommendations and management’s actions taken and planned are responsive
to our recommendations. (OIG-13-046)

Treasury Needs Written Policies and Procedures for Its Oversight of the Housing Finance Agency
Initiative

We performed an audit of Treasury’s participation in the Housing Finance Agency (HFA) Initiative, one
of several programs authorized under the Housing and Economic Recovery Act of 2008 (HERA).
Treasury entered into the HFA Initiative with the Federal Housing Finance Agency, Federal National
Mortgage Association (Fannie Mae) and the Federal Loan Mortgage Corporation (Freddie Mac) for the
purpose of supporting state and local housing finance agencies that were experiencing challenges in
providing finance for affordable housing. The HFA Initiative is comprised of two programs— New
Issue Bond Program (NIBP) and the Temporary Credit and Liquidity Program (TCLP) which were
intended to provide HFAs with a temporary supplemental market for newly issued HFA bonds and
temporary credit and liquidity facilities similar to letters of credits.

Prior to the expiration of its purchase authority in 2009, Treasury purchased $15.3 billion of government
sponsored enterprise securities supporting the NIBP and committed approximately $8.2 billion 6 for a
100 percent participation in the credit and liquidity facilities established by the government sponsored
enterprises under the TCLP. To carry out its custodial and managerial responsibilities, Treasury
amended existing Financial Agency Agreements with JPMorgan Chase Bank N.A. and State Street Bank
and Trust.

We assessed whether the two components of the HFA Initiative—NIBP and the TCLP—were being
administered consistent with Treasury’s authority under HERA. Specifically, we assessed Treasury’s

6 As of May 2013, Treasury’s commitment decreased to $2.8 billion as a result of some HFAs withdrawing from the program

and bond repayments.




        Treasury Office of Inspector General Semiannual Report—September 2013                                      11
                                              Office of Audit – Significant Audits and Other Products

process for (1) monitoring the performance of the financial agents hired to carry out Treasury’s
purchases of securities and to serve as custodian of the purchased securities and (2) determining whether
the HFA Initiative was achieving its stated program objectives.

We found that Treasury’s administration of the NIBP and the TCLP was consistent with its authority
under HERA and that the programs were meeting their stated objectives. Although we found that
Treasury did monitor the performance of the financial agents overseeing the HFA Initiative, there were
no written policies and procedures governing Treasury’s monitoring process. Additionally, Treasury did
not sufficiently document the results of various reviews and oversight activities performed specific to
the NIBP and TCLP. We recommended that the Fiscal Assistant Secretary establish and implement
written policies and procedures specific to the HFA Initiative for ensuring its comprehensive
monitoring of the financial agents’ performance. Procedures should include a requirement that Treasury
personnel responsible for overseeing the HFA Initiative document key meetings and decisions, as well
as the results of various reviews of the NIBP and the TCLP program outcomes to ensure that the HFA
Initiative continues to meet program objectives. Treasury management’s planned corrective action was
responsive to our recommendation. (OIG-13-040)

FinCEN’s BSA IT Modernization Program Was within Budget and on Schedule But Users Suggest
Enhancements

To improve the collection, analysis, and sharing of Bank Secrecy Act (BSA) data, the Financial Crimes
Enforcement Network (FinCEN) began a system development effort in November 2006 referred to as
the BSA IT Modernization program (BSA IT Mod). The intent of the system was, among other things,
to transition BSA data from IRS to FinCEN. BSA IT Mod is estimated to cost $120 million and is to be
completed in 2014. Pursuant to a Congressional directive, 7 we completed a fourth audit in a series of
audits of FinCEN’s BSA IT Mod. Consistent with the directive, the objectives of the audit were to
determine if FinCEN is (1) meeting cost, schedule, and performance benchmarks for the program and
(2) providing appropriate oversight of contractors. We also assessed program oversight provided by
Treasury’s Office of the Chief Information Officer. The period covered by this audit was January
through June 2013.

As of June 2013, we found that the BSA IT Mod program was within budgeted costs and that all
planned milestones were completed except one, the Broker Information Exchange project. The
schedule for this milestone, the last one for the BSA IT Mod program, was modified to incorporate
phases and adjusted from April 2013 to April 2014 because of a reorganization of FinCEN that required
additional time to define the project’s requirements and align with the new organization areas and
priorities.


7House Report 112-331 directed our office to report on BSA IT Mod, including contractor oversight and progress regarding
budget and schedule semiannually. Our prior reports were issued on March 26, 2012, September 27, 2012, and
March 28, 2013.




        Treasury Office of Inspector General Semiannual Report—September 2013                                       12
                                         Office of Audit – Significant Audits and Other Products

While FinCEN met all major milestones, risks remain to the program. One risk is the interdependency
between the component projects. Future enhancements and modifications made to one component
could affect others. Another risk concerns differences among users’ needs and how FinCEN must
consider, prioritize, and accommodate those needs. Some users also reported that BSA IT Mod features
are difficult to use. We found that although FinCEN Query users from law enforcement and regulatory
agencies we interviewed were generally satisfied with the system, they expressed some limitations and
suggested enhancements. FinCEN analysts we interviewed told us that Advanced Analytics met their
needs, although it was somewhat complex and additional training would be beneficial.

We also found that the level of program oversight by FinCEN and Treasury’s Office of the Chief
Information Officer had not changed since our previous report, and we consider the level of oversight
to be appropriate.

We recommended that FinCEN (1) when making changes to BSA IT Mod, communicate the changes to
users; (2) continue to engage users to address their concerns and suggested enhancements to
BSA IT Mod through the Data Management Council and periodically communicate the status of these
suggestions to users; and (3) ensure that training and support is provided to internal and external
BSA IT Mod users that addresses their business needs. FinCEN’s planned corrective actions were
responsive to our recommendations. (OIG-13-053)

Treasury Has Policies and Procedures to Safeguard Classified Information But Implementation Needs
to Be Improved

The Reducing Over-Classification Act requires the Inspector General of each department or agency
with an officer or employee who is authorized to make original classifications to (1) assess whether
applicable classification policies, procedures, rules, and regulations have been adopted, followed, and
effectively administered; and (2) identify policies, procedures, rules, regulations or management practices
that may be contributing to persistent misclassification of material. The act called for two evaluations to
be completed—the first by September 30, 2013, and the second by September 30, 2016.

We completed the first review under this statute which found that Treasury has policies and procedures
in place to safeguard classified materials, but the implementation of these policies and procedures needs
improvement. Heightened attention should be given to (1) marking classified emails; (2) completing the
annual Standard Form 311, Agency Security Classification Management Program Data; and (3) complying with
self-inspection requirements.

We recommended that the Assistant Secretary for Intelligence and Analysis direct the Deputy Assistant
Secretary for Security to remind employees who work with classified information about the requirement
in the Treasury Security Manual to properly mark classified emails and provide initial training on marking
requirements when an employee is first given access to Treasury classified email systems and periodic
refresher training thereafter. We also recommended controls be implemented to ensure that an accurate
and complete Treasury consolidated Standard Form 311 is submitted to the Information Security


       Treasury Office of Inspector General Semiannual Report—September 2013                           13
                                                  Office of Audit – Significant Audits and Other Products

Oversight Office. In this regard, Treasury’s Office of Security Programs should review Treasury’s
Departmental Offices’ and bureaus’ internally reported information on classification decisions and other
classification information for reasonableness, and also ensure that those offices expected to have
classification information submit the required information for the consolidated Standard Form 311.
Additionally, we recommended that controls be implemented to ensure that Treasury bureaus with
employees who handle and generate classified information conduct annual self-inspections in
accordance with the Treasury Security Manual, document the results, and submit reports to the Office of
Security Programs. The scope of inspections performed by the Office should include reviews of both
emails and documents created outside the electronic environment. Treasury management’s corrective
actions taken and planned are responsive to our recommendations. (OIG-13-055)

Community Development Financial Institutions Fund Implemented Corrective Actions to Address
Contract and Personnel Management Deficiencies

We reviewed the corrective actions taken by the Community Development Financial Institutions Fund
management in response to a prior audit on contract and personnel management issued in September
2009. 8 We followed up on the six recommendations made in that report: four recommendations to
address contract administration deficiencies—we reported that the Fund could not provide
documentary evidence supporting the contract administration activities for IT development and support
contracts and therefore could not demonstrate that the contractor provided the services required by the
contracts or the necessity of using three non-Treasury agencies to perform the contracting officer
functions; and two recommendations to address personnel administration deficiencies—we reported
that the Fund did not document justification nor had a position description for a noncompetitive
promotion of a Fund contract specialist. We found that Fund management had taken steps to ensure
that the deficiencies were corrected. Fund management improved contract oversight and now uses a
Treasury source for contracting officer services. Additionally, Fund management posted all vacancy
announcements to Treasury’s Career Connector system to ensure a competitive, documented hiring
process as well as to ensure all employees had a valid position description. (OIG-13-042)

Other Products
Response to Inquiry Regarding Cash Discounts

In response to an inquiry regarding Treasury’s effective annual discount rate (EADR) included in the
Treasury Financial Manual, Volume 1, Part 6, Chapter 8000 Cash Management, Section 8040.40 – Cash Discounts
(TFM), we provided information on the calculation of the payment period for cash discounts and on the
annual calendar days used to compute the EADR formula, and our conclusion that the EADR formula
in the TFM is correct. The EADR formula is used by federal agencies to assess whether discounts
offered by vendors for early payment of invoices should be taken. (OIG-CA-13-008)

8
    OIG-09-048, CDFI Fund Contract Administration and Personnel Management Practices Need Improvement (Sep. 17, 2009)




           Treasury Office of Inspector General Semiannual Report—September 2013                                        14
                                        Office of Audit – Significant Audits and Other Products

Inquiry into Restricted and Classified Matters (Sensitive But Unclassified)

We issued a memorandum to the Inspector General of the Intelligence Community in response to a
request for information related to the U.S. Government’s handling of information leading up to the
Boston Marathon bombings. The information provided included data from suspicious activities reports
submitted to FinCEN. Due to the sensitive nature of the information, the memorandum is restricted.
(OIG-CA-13-010)

Financial Management
Audit of the Office of D.C. Pensions’ Treasury Reconciliation Report for the Period October 1, 1997,
through December 31, 2007

Lani Eko & Company, CPAs, PLLC, under a contract issued by the Office of D.C. Pensions, performed
an audit of the office’s Treasury Reconciliation Report for the period October 1, 1997, through
December 31, 2007. Identified in the report was approximately $31 million in District of Columbia
(D.C., or District) benefit payments due from the D.C. Retirement Board to Treasury for the period.
The auditor found that the Treasury Reconciliation Report presented fairly, in all material respects, the
total District benefit payments, the amounts paid by the Board for estimated District benefit payments,
and the amount due from the Board to Treasury for District benefit payments for the period. The audit
did not identify any matters involving internal control and its operation that are considered material
weaknesses or any instances of reportable noncompliance with laws and regulations tested.
(OIG-13-039)

Attestation Engagements

Reports on the Processing of Transactions by the Bureau of the Fiscal Service

We completed the three reports described below in support of the audit of Treasury’s fiscal year 2013
consolidated financial statements and the financial statement audits of certain other federal agencies.

KPMG LLP (KPMG), under a contract with our office, examined the accounting and procurement
processing, and general computer controls related to financial management services provided to various
federal agencies by BFS’ Administrative Resource Center for the period beginning July 1, 2012, and
ending June 30, 2013. KPMG found, in all material respects, that the controls were fairly presented in
the description of controls for these activities and suitably designed. The auditor also found that
controls tested operated effectively throughout the period. (OIG-13-047)


KPMG, under a contract with our office, examined general computer and trust funds management
processing controls used for various federal and state agencies’ transactions by the BFS’ Trust Funds
Management Branch, and general computer and investment/redemption processing controls used for


       Treasury Office of Inspector General Semiannual Report—September 2013                           15
                                                         Office of Audit – Significant Audits and Other Products

various federal agencies’ transactions by the bureau’s Federal Investments Branch for the period
beginning August 1, 2012 and ending July 31, 2013. KPMG found, in all material respects, that the
controls were fairly presented in the description of controls for these activities and suitably designed.
The auditor also found that controls tested operated effectively throughout the period. (OIG-13-050,
OIG-13-051).

Financial Audits of Treasury
Audits of the fiscal year 2013 financial statements or schedules of the Department and component
reporting entities were in progress at the end of this semiannual reporting period.

The following instances of noncompliance with the Federal Financial Management Improvement Act of
1996, which all relate to IRS, were reported in connection with the audit of the Department’s fiscal year
2012 consolidated financial statements.

                                                                                                                          Type of
Condition                                                                                                                 noncompliance
Internal control deficiencies in automated systems for tax-related transactions continue to exist. As a result of these   Federal financial
deficiencies, IRS was unable to (1) rely on its general ledger system for tax transactions and underlying subsidiary      management systems
records to report federal taxes receivable, compliance assessments, and write-offs in accordance with federal             requirements
accounting standards without significant compensating procedures; (2) trace reported balances for taxes receivable
from its general ledger to underlying source documents; and (3) effectively prevent or timely detect and correct errors
in taxpayer amounts. (first reported in fiscal year 1997)
Automated systems for tax-related transactions did not support the net federal taxes receivable amount on the balance     Federal accounting
sheet and required supplementary information disclosures for uncollected taxes – compliance assessments and write-        standards
offs – as required by Statement of Federal Financial Accounting Standards No. 7, Accounting for Revenue and Other
Financing Sources and Concepts for Reconciling Budgetary and Financial Accounting. (first reported in fiscal year
1997)


The status of these instances of noncompliance, including progress in implementing remediation plans,
will be evaluated as part of the audit of the Department’s fiscal year 2013 consolidated financial
statements.




           Treasury Office of Inspector General Semiannual Report—September 2013                                                               16
Office of SBLF Program Oversight – Significant Audits
Small Business Lending Fund
The Small Business Jobs Act of 2010 established the SBLF program. The SBLF program was created to
provide capital to small banks, with incentives for those banks to increase small business lending.
Treasury disbursed more than $4 billion to 332 financial institutions across the country, of which 137
were institutions that used their SBLF investment to refinance securities issued under the Troubled
Asset Relief Program (TARP). The 137 TARP banks received two-thirds of the $4 billion invested in
participating banks. Institutions receiving investments under the SBLF program are expected to pay
dividends to Treasury at rates that will decrease as the amount of their qualified small business lending
increases. Under Section 4107(a) of the act, the Special Deputy Inspector General for SBLF Program
Oversight is responsible for audit and investigations related to the SBLF program and must report at
least twice a year to the Secretary of the Treasury and the Congress on the results of oversight activities
involving the program. During this semiannual reporting period, the Office of SBLF Program Oversight
completed three audits on small business lending.

Reported SBLF Program Accomplishments Are Misleading Without Additional Reporting

In April 2013 Treasury reported that institutions participating in SBLF had increased their small
business lending by $8.9 billion. However, approximately $3.4 billion of this amount occurred prior to
when most participants received their SBLF funds, and Treasury cannot identify how much of the gains
reported by participants were attributable to the SBLF funding. In addition, three prior audits showed
that 50 percent or more of participants reviewed misreported their lending gains. Treasury’s report also
characterizes the small business lending gains as being widespread across SBLF participants with
90 percent of participants increasing their small business lending. While this is true, half of the increases
were attributable to 11 percent of the 320 participants.

Treasury also reported on participant progress in achieving lending growth estimates made at the time of
application to the program. However, the information was inaccurate, as institutions used different
periods over which to make their lending projections. Treasury intended that participant lending
forecasts include the period from the baseline to funding, but most of the participants in our sample did
not include the baseline period in their forecasts. By comparing this longer period of gains to the banks’
shorter projection period, Treasury overstated participant progress toward their projected lending levels.
When we reviewed actual lending gains achieved during the period that 77 participants used for their
forecasts, we found that 56 percent were not on track to meet their projections. We also noted that
Treasury’s June 2013 report, Results of the First Annual SBLF Lending Survey, made the same
misrepresentations.

We recommended that to increase transparency in its reporting, Treasury should retitle the Use of
Funds Report to better reflect the report’s contents, report only lending gains realized after SBLF
funding, disclose that reported lending gains cannot be directly linked to SBLF funds, and indicate

        Treasury Office of Inspector General Semiannual Report—September 2013                            17
                                         Office of SBLF Program Oversight – Significant Audits

whether gains were concentrated among a few institutions or more widely distributed. We also
recommended that Treasury make comparable changes to its 2013 Results of the First Annual SBLF
Lending Survey report. Treasury should either amend the survey report to acknowledge that progress
reported may not be accurate due to variances in projection periods or conduct an individualized
analysis of lending gains using the time period that served as the basis for each participant’s lending
forecasts. Treasury agreed with all but one recommendation, and through the audit resolution process,
arrived at responsive planned actions for all of the recommendations. (OIG-SBLF-13-012)

Accuracy of Fourth-Quarter 2012 Dividend Rate Adjustments

Our audit determined that 19 of the 22 financial institutions reviewed inaccurately reported qualified
small business lending gains for the quarter ended June 30, 2012. In aggregate the errors noted resulted
in the over-reporting of qualified lending by approximately $8.8 million, but did not affect the
dividend/interest rates on January 1, 2013, payments made by financial institutions participating in the
SBLF program. Fourteen (14) over-reported their gains by approximately $12.6 million and 5 under-
reported their gains by approximately $3.8 million. The errors observed were similar to those noted in
our January 2013 report on initial dividend rates and were largely caused by institutions (1) incorrectly
recording Call Report loan volumes on the initial supplemental reports and quarterly supplemental
reports, (2) improperly adjusting lending volumes on the reports, and (3) incorrectly classifying loans on
Call Reports.
We recommended that Treasury follow up with the 19 institutions that made reporting errors to
determine whether corrected reports should be submitted; review the submissions of these institutions
for additional errors and make the necessary adjustments to dividend rates, as appropriate; and ensure
that the October 2013 Use of Funds Report contains corrections for errors identified by the audit. Treasury
planned corrective action that is responsive to our recommendations. (OIG-SBLF-13-010)

Accuracy of First-Quarter 2013 Dividend Rate Adjustments

We determined that 17, or 77 percent, of the 22 financial institutions reviewed inaccurately reported
qualified lending gains for the quarter ended September 30, 2012. Of these institutions, 10 over-reported
their gains by approximately $14.3 million and 7 under-reported their gains by approximately
$1.0 million. Overall, the errors resulted in the over-reporting of qualified lending by approximately
$13.3 million, but did not affect the dividend/interest rates on April 1, 2013, payments to Treasury.
Similar to our August 9, 2013, report on 2012 fourth-quarter dividend rate adjustments, the errors
observed were largely caused by institutions (1) incorrectly recording Call Report loan volumes on the
initial supplemental reports and quarterly supplemental reports, (2) improperly adjusting lending
volumes on the initial supplemental reports and quarterly supplemental reports, and (3) incorrectly
classifying loans on Call Reports.
Because the errors we identified need to be corrected and will affect the reporting of loan activity to
Congress, we recommended that Treasury follow up with the 17 institutions that made reporting errors
to determine whether corrected reports should be submitted, review the submissions of these
institutions for additional errors, and make the necessary adjustments to dividend rates, as appropriate.

       Treasury Office of Inspector General Semiannual Report—September 2013                           18
                                           Office of SBLF Program Oversight – Significant Audits

We also recommended that Treasury ensure the January 2014 Use of Funds Report correctly identifies
qualified lending activity for the 17 institutions. Treasury agreed to take all of our recommended actions.
(OIG-SBLF-13-014)



Following is an update to a significant SBLF Program Oversight audit reported in a prior semiannual
report.

Accuracy of Third-Quarter 2012 Dividend Rate Adjustments

As discussed in our March 2013 semiannual report, we determined that 10 of 19 financial institutions
reviewed inaccurately reported qualified small business lending gains for the quarter ended
March 31, 2012. The errors noted resulted in the underreporting of qualified lending by approximately
$15.3 million, but did not affect the dividend/interest rates on October 1, 2012, payments made by
financial institutions participating in the SBLF program. The errors we observed were largely caused by
institutions (1) incorrectly recording Call Report loan volumes on the initial supplemental reports and
quarterly supplemental reports, (2) improperly adjusting lending volumes on the reports, and
(3) incorrectly classifying loans on Call Reports. As part of our recommendations, we asked that
Treasury determine whether corrected initial supplemental reports and quarterly supplemental reports
should be submitted for the 10 institutions that made errors, review the submissions of these institutions
for additional errors, and adjust dividend rates, as appropriate. Treasury agreed with the
recommendation.

Update: Treasury reviewed the reporting discrepancies identified by our office and directed the 10
financial institutions to resolve errors in their reporting. The 10 institutions submitted corrected initial
supplemental reports and quarterly supplemental reports. For 1 of the 10 institutions, Treasury
considered its correction significant to its dividend/interest rate payment, and recouped an additional
$1.2 million from the institution.


State Small Business Credit Initiative
The Small Business Jobs Act of 2010 also established the SSBCI program, which awarded $1.5 billion to
states, territories, and eligible municipalities to support state programs that lend to and invest in small
businesses. Under the initiative, participating states use the federal funds for programs that leverage
private lending to help finance small businesses and manufacturers that are creditworthy, but are not
getting the loans they need to expand and create jobs. SSBCI builds on new and existing models for
state small business programs, including those that finance loan loss reserves and provide loan
insurance, loan guaranties, venture capital funds, and collateral support. To date, Treasury has disbursed
approximately $802 million of the funds awarded under the program to 57 states, territories, and
municipalities that are participating in SSBCI. Recipients must report quarterly and annually on their use
of the funds.



        Treasury Office of Inspector General Semiannual Report—September 2013                             19
                                         Office of SBLF Program Oversight – Significant Audits

The act also created within OIG the Office of Small Business Lending Fund (SBLF) Program
Oversight. This office is responsible for identifying instances of intentional or reckless misuse of SSBCI
funds. Program funds are disbursed in three allotments and are subject to being withheld pending the
results of an audit by the Office of SBLF Program Oversight. During this semiannual reporting period,
the Office of SBLF Program Oversight completed four audits on states’ use of federal funds.

Missouri’s Use of Federal Funds for Other Credit Support Programs

The State of Missouri properly used over 96 percent of the $7.3 million in SSBCI funds it expended, and
all related administrative costs were compliant with program requirements. However, we identified a
$240,000 venture capital investment that constituted a reckless misuse of funds, as defined by Treasury.
A Director of the Missouri Technology Corporation (MTC) Board that approved the investment had a
prohibited party relationship with the company that received the investment based on the Director’s
controlling interest in the investee. The transaction constituted a reckless misuse of funds as MTC
officials exhibited an act of omission by not securing the required assurances from the investee that such
a relationship did not exist, and both the State and the MTC Board failed to ascertain whether they were
in compliance. Additionally, MTC did not sufficiently explore the relationship between the conflicted
Board Director and the investee, or document the material facts of the conflict in the Board minutes as
its policy required. We noted other instances where members of the MTC Board of Directors had
conflicts of interest that required their recusal from voting, but determined that the conflicts did not
constitute prohibited related interests.

Additionally, MTC had not obtained all of the required borrower or investee assurances by the time of
loan or investment closing for 15 (or 88 percent) of the 17 transactions reviewed. Missouri has since
obtained 14 of the 15 missing assurances, but has yet to secure an assurance from the company involved
in the prohibited party relationship with the MTC Board member. Despite the inadequate assurances,
the State inaccurately certified in June 2012 that it was in compliance with all SSBCI requirements.

We recommended that Treasury recoup the $240,000 investment from the program and require
Missouri to demonstrate that MTC is fully adhering to its conflict-of-interest policy and program
requirements when investing SSBCI funds. We also recommended that Treasury determine whether
there has been a general event of default under Missouri’s Allocation Agreement and if so, whether it
warrants a reduction, suspension, or termination of future funding to the State. Treasury planned
corrective action that is responsive to our recommendations. (OIG-SBLF-13-009)

Massachusetts’ Use of Federal Funds for Capital Access and Other Credit Support Programs

The Commonwealth of Massachusetts appropriately used most of the SSBCI funds it had expended as
of June 30, 2012, but spent $237,000 to participate in (i.e., credit enhancements) a Small Business
Administration-guaranteed loan, which is prohibited. However, Treasury’s guidance does not define
“credit enhancement,” prohibits the enrollment of only the “unguaranteed” portions of federally-
guaranteed loans, and provides that applications will be evaluated on a case-by-case basis. Consequently,
participating states may misinterpret Treasury’s guidance to mean that participation in federally-

       Treasury Office of Inspector General Semiannual Report—September 2013                           20
                                         Office of SBLF Program Oversight – Significant Audits

guaranteed loans may be approved in some instances or where just the “guaranteed” portion of such
loans is enrolled.

Additionally, Massachusetts did not obtain complete borrower and lender assurances by the time of loan
closings for 31 (or 89 percent) of the 35 loans tested, as required. Despite the incomplete assurances, the
Commonwealth certified in March 2012 and June 2012 that it was in compliance with all SSBCI
requirements. Massachusetts’ materially inaccurate certification constitutes a basis for finding the
Commonwealth in default of its Allocation Agreement. Finally, Massachusetts reported to Treasury
$200,000 in administrative expenses that was not adequately supported; and did not report $51,248 in
program income to Treasury, as required by its Allocation Agreement.

We recommended Treasury revise program guidance to make the enrollment of federally-guaranteed
loans a clear prohibition, disallow $200,000 in administrative expenses unless the Commonwealth can
provide adequate support for such costs, require the Commonwealth to demonstrate that it has a
compliant system for allocating administrative costs, and determine whether there has been a general
event of default of the Allocation Agreement. Treasury planned corrective action that was responsive to
our recommendations. Additionally, Massachusetts clarified that it did not charge the SSBCI fund for
the $200,000 in administrative costs and does not intend to seek reimbursement from SSBCI for these
expenses. (OIG-SBLF-13-007)

Kansas’ Use of Federal Funds for Other Credit Support Programs

The State of Kansas appropriately used most of the SSBCI funds it had expended as of March 31, 2012.
However, the Kansas Multiplier Loan Fund extended three $250,000 loans to affiliated entities as part of
a $31 million aggregate financial arrangement. In doing so, the State may have exceeded the $20 million
cap on SSBCI loans made under other credit support programs. Treasury’s guidance does not address
how the cap should be applied when funds are used to make companion loans comprising a larger
financial package or where multiple loans are made to affiliated entities. Nevertheless, in the absence of
clear guidance, the State should have sought clarification from Treasury.

Also, in each of the 11 transactions reviewed, Kansas did not obtain assurances from companion lenders
that participated in the Kansas Capital Multiplier Loan Fund as required by SSBCI Policy Guidelines and
National Standards. Also 5 of 11 assurances obtained from borrowers were not obtained prior to loan
closing, as required. Treasury initially advised Kansas officials that due to the program’s structure, the
State was not required to obtain these assurances. The National Standards subsequently published by
Treasury reversed this advice and required states to collect assurances from companion lenders.
However, Treasury did not notify Kansas officials of the change.

Additionally, the State’s March 31, 2012, Quarterly Report to Treasury inaccurately reported the amount
of SSBCI capital that the Kansas Capital Multiplier Loan Fund had extended to businesses as it included
a $173,822 advance to NetWork Kansas for administrative costs. While the $173,822 constituted funds
used per Treasury guidance, the Kansas Capital Multiplier Loan Fund reported the used funds as a loan


       Treasury Office of Inspector General Semiannual Report—September 2013                           21
                                        Office of SBLF Program Oversight – Significant Audits

instead of administrative expenses. Kansas also understated administrative expenses on its
June 30, 2012, Quarterly Report by $29,247. Of the funds not reported, $13,181 was used to pay audit
and tax consulting fees for NetWork Kansas. These costs are not allowable as they had not been
allocated through a cost allocation plan as required by Office of Management and Budget Circular A-87.

We recommended that Treasury clarify how the $20 million cap on credit extended by other credit
support programs should be applied to companion loans in a single financial arrangement and where
multiple loans are made to affiliated parties. We also recommended that Treasury require Kansas to
retroactively obtain lender assurances from the companion lenders that participated in existing Kansas
Multiplier Loan Fund SSBCI transactions. Additionally, in all future transactions, Treasury should
require the State to obtain lender assurances from its companion lenders. Further, we recommended
that Treasury require Kansas to adjust the State’s Quarterly Reports going forward to correct for
inaccuracies in the March 31, 2012, and June 30, 2012, Quarterly Reports identified by the audit,
determine whether a general event of default of the State’s Allocation Agreement has occurred, and if
so, take appropriate action. Finally, we recommended that Treasury disallow $13,181 in audit and tax
consulting costs that were not properly allocated, ensure that such costs are excluded from the State’s
restated and subsequent Quarterly Reports, and require that Kansas provide a cost allocation plan or
indirect cost proposal for administrative costs incurred by NetWork Kansas. Treasury agreed to
implement all of the recommendations, with the exception of retroactively obtaining lender assurances
from relevant companion lenders because the State has no contract or other relationship with
companion lenders to form the basis for retroactively requesting the assurances. We considered
Treasury’s planned actions to be fully responsive to all of the recommendations. (OIG-SBLF-13-013)

Washington’s Use of Federal Funds for Capital Access and Other Credit Support Programs

We determined that all $7 million in loans and investments enrolled in the Washington Enterprise
Cascadia Fund and the W Fund as of June 30, 2012, complied with SSBCI program requirements and
restrictions, and that borrower and lender assurances were complete and timely. However, the $92,291
in administrative expenses the State reported to Treasury was overstated by $5,779 as a result of an
accounting change that was not reflected in the State’s June 30, 2012, Quarterly Report.

We recommended that Treasury authorize an adjustment to Washington’s June 30, 2012, Quarterly
Report to remove the $5,779 in administrative costs originally charged to SSBCI funds, but subsequently
transferred to an alternative funding source.

Treasury planned corrective action that is responsive to our recommendation. (OIG-SBLF-13-011)

Alabama’s Use of Federal Funds for Capital Access and Other Credit Support Programs

The State of Alabama complied with all program requirements in administering the $3.8 million of
SSBCI funds used as of June 30, 2012. The State’s success in ensuring full compliance was attributable
to its completion of a checklist prior to each loan enrollment to ensure loans were evaluated for
compliance with SSBCI requirements and its timekeeping process for tracking administrative costs.

       Treasury Office of Inspector General Semiannual Report—September 2013                         22
                                         Office of SBLF Program Oversight – Significant Audits

However, Alabama overstated the amount of SSBCI funds used by approximately $1 million on its
March 31, 2012, Quarterly Report, and by approximately $4 million on its June 30, 2012, Quarterly
Report. This occurred because the State incorrectly included private lender contributions to loss reserves
for loans guaranteed with SSBCI funds. Inaccuracies were identified by Treasury and corrected prior to
our audit; accordingly, we made no recommendations.

Treasury concurred with our report and stated that it will continue to encourage the use of compliance
checklists prior to closing transactions, and to share Alabama’s successful timekeeping process with
other participating states. (OIG-SBLF-13-008)




       Treasury Office of Inspector General Semiannual Report—September 2013                          23
Office of Investigations – Significant Investigations
Gulf Coast Restoration Trust Fund Oversight Investigative Initiative
As discussed earlier in this report, the RESTORE Act established a Trust Fund within Treasury for the
purpose of providing funds for the environmental and economic restoration of the Gulf Coast region,
which was damaged by the April 2010 Deepwater Horizon disaster. Treasury manages the Trust Fund and
our Office has audit and investigative authority over programs and activities funded by the Trust Fund.
Specifically, our Office of Investigations is responsible for investigating complaints and information
received on activity that may constitute

       •   a violation of law, rules, or regulations;
       •   mismanagement;
       •   gross waste of funds;
       •   abuse of authority; or
       •   a substantial and specific danger to public health and safety.

We are taking proactive steps to deter and identify potential fraud associated with RESTORE Act
programs and activities. We are meeting with the respective state governments, agencies, municipalities,
and potential business recipients, to explain our oversight role and fraud prevention strategies. The
states we have visited have pledged to help account for and combat fraud through their audit agencies
and Attorneys General offices. We have also established a hotline, 1-855-584-GULF, and an email
address, gulfcoastrestorationhotline@oig.treas.gov, to report potential fraud, waste, and abuse
specifically related to the RESTORE Act.

Significant Investigations
Misuse of Eagle Cash Card Program Leads to Guilty Plea and Sentence for Mississippi Soldier

As the result of our joint investigation with the Federal Bureau of Investigation (FBI), the U.S. Army
Criminal Investigations Division, and the Special Inspector General for Afghanistan Reconstruction, a
Specialist with the Mississippi Army National Guard’s 220th Financial Management Detachment
entered a guilty plea in the U.S. District Court for the Southern District of Mississippi. The Specialist's
guilty plea was to 1 count of Conspiracy to Commit Theft and Wire Fraud and to 1 count of Theft of
Government Property. In August 2013, the Specialist was sentenced to 3 months’ incarceration and 3
years’ supervised probation. The Specialist was also ordered to pay $32,300 in restitution. He was fined
$7,500, and was required to pay an assessment of $200. The Specialist was being investigated for the
illegal transfer of funds from the Eagle Cash Card (ECC) Program; a program operated by Treasury.
The Specialist was deployed as part of his Army National Guard unit to Afghanistan from about April
2010 to about March 2011. The Specialist was trained as a Financial Management Technician and


        Treasury Office of Inspector General Semiannual Report—September 2013                           24
                                             Office of Investigations – Significant Investigations

performed the function of cashier with the ECC Program. The stored-value ECCs are issued to
Department of Defense civilians and to service members deployed overseas to reduce reliance on cash
for purchases of goods and services at overseas military facilities, particularly in conflict zones. The
cards are linked to the cardholders’ personal bank accounts, and cardholders may transfer funds from
their linked personal bank accounts to their cards by visiting a cashier on base. While serving as a
cashier, the Specialist illegally added a total of $32,300 onto his own ECC and to those of his 2
co-conspirators.

Individual Sentenced in a Stolen U.S. Treasury Check and Fraudulent Tax Refund Scheme

We opened an investigation after receiving information from Wells Fargo Bank indicating that a former
bank teller abused her position in order to negotiate 28 stolen U.S. Treasury checks worth $109,818. The
investigation included multiple interviews, a consent search, and a review of bank records and evidence
obtained during the consent search. We identified a computer that was being used to obtain a large
number of fraudulent tax refunds to IRS. One individual pled guilty and was sentenced to 15 months’
incarceration in federal prison to be followed by 3 years of supervised release, 50 hours of community
service, and an order to make restitution to Treasury in the amount of $54,614 and to the Georgia
Department of Revenue in the amount of $23,566.

Mint Employee Receives 45-Day Suspension for Misuse of Computer and Unauthorized Possession of
Mint Property

We began an investigation based on allegations that a Mint employee was misusing his
government-issued laptop computer during work hours to view pornography. We reviewed the
employee’s internet activity and identified the employee’s most visited sites, which had a combined total
of 5,406 times viewed in a single year and daily average use of 2 to 3 hours. We identified these websites
as dating websites, and found no evidence of pornography. We interviewed the employee, who
confessed to misusing his government-issued computer for personal use during work hours in violation
of Mint policy. In January 2013, while disciplinary action was pending on this matter, the employee was
stopped while leaving Mint grounds with unauthorized possession of government property. The
employee admitted to removing government property from Mint grounds and in July 2013 received a
45-day suspension for his actions in both cases. The employee waived his right to appeal the disciplinary
decision.

OCC Employee Receives 20-Day Suspension for Misuse of Government Travel Card

We received a complaint that an OCC employee had misused her government-issued travel card in
excess of $31,000. We reviewed the employee’s Citibank travel card charges and travel vouchers and
discovered that the employee was misusing her travel card for local purchases and cash advances while
not on official travel. When interviewed, the employee admitted to misusing the travel card for personal
use. The employee has repaid all outstanding debts on the travel card and was given a 20-day suspension
by OCC.


       Treasury Office of Inspector General Semiannual Report—September 2013                          25
                                                Office of Investigations – Significant Investigations

Individual Indicted for Receiving Stolen U.S. Postal Service Disability Payments

We opened an investigation based on a request to assist in an investigation made by the U.S. Postal
Service OIG. The investigation included multiple interviews, surveillance, and the execution of a federal
search warrant. The investigation determined that the individual collected benefits fraudulently in the
amount of $103,228. The individual was indicted, arrested, pled guilty, and was sentenced to 1 year of
imprisonment, which may be served at home, and 2 years of supervised probation. The subject was
ordered to pay $91,783 in restitution and to pay a fine of $103,000.

BFS Employee Pleads Guilty and Is Sentenced in Forgery Investigation

Our office received information regarding an alleged insurance fraud scheme perpetrated by a BFS
employee. Specifically, it was alleged that the subject created and faxed fraudulent Certificates of
Insurance from her BFS fax machine to a carpet company in an effort to help her husband obtain
employment as a subcontractor. In April 2013, the subject pled guilty to State of Maryland charges for
Forgery. The subject was sentenced to 1 year of unsupervised release, and was ordered to pay a fine of
$500.



Following is information related to significant investigative activities from prior semiannual periods.

Accenture Pays $12.7 Million in Settlement

Our office initiated a joint investigation with TIGTA concerning allegations of labor overcharging by
Accenture LLP (Accenture), a Treasury contractor under the Treasury Information Processing Support
Services (TIPPS) contracts, TIPPS-II and TIPPS-III. The investigation verified a final cost impact
estimate, including interest, of $12.7 million for Treasury. In March 2013, Accenture and the
U.S. Attorney’s Office for the Eastern District of Virginia agreed to a non-admission settlement
whereby Accenture will repay approximately $12.7 million to the federal government.

Individual Found Guilty and Sentenced for Misusing Treasury Name in Fraud Scheme

Our office received information regarding an individual who allegedly misused the Treasury name to
create fraudulent money orders which were subsequently sent via U.S. mail to make payments on
personal accounts. As a result of a joint investigation with the Doylestown Township, Pennsylvania,
Police Department, the subject was arrested on Commonwealth of Pennsylvania charges of Writing Bad
Checks and Theft of Services. In March 2013, the subject was found guilty via trial and was sentenced to
serve a minimum of 14 days to 1 year of incarceration.

Gallup Settles as a Result of Civil Complaint

As reported in our March 2013 semiannual report, our office initiated a multi-year joint investigation
with the FBI, the U.S. Department of State, the U.S. Department of Homeland Security, and the

        Treasury Office of Inspector General Semiannual Report—September 2013                             26
                                             Office of Investigations – Significant Investigations

General Services Administration involving a whistleblower complaint against the Gallup Organization
(Gallup) alleging that the organization had overcharged federal agencies on hours and costs for its
services. Gallup allegedly overcharged the Mint for a contract to provide surveys for the Presidential
Dollar Program and allegedly violated the False Claims Act by giving the Mint and Department of State
inflated estimates of the number of hours that its services would be required on projects, even though it
had separate and lower internal estimates of the number of hours that would be required. The federal
government paid Gallup based on the inflated estimates that it had submitted. The U.S. Department of
Justice filed a civil complaint against Gallup seeking to recover treble damages and civil penalties for
violations under the False Claims Act, the Procurement Integrity Act, and other violations of federal
laws and regulations. As a result of this lawsuit, Gallup was suspended from future contracting with any
agency in the executive branch of the federal government pending completion of the civil complaint;
five members of Gallup’s management team were suspended as well.

Update: In July 2013, the U.S. Department of Justice, U.S. Attorney’s Office, Criminal Division, filed a
Non Prosecution Agreement with Gallup. In the agreement, Gallup accepted responsibility for the
information documented in the Statement of Facts; agreed to pay a monetary penalty of $50,000; and
agreed to strengthen its corporate compliance, internal control standards, and ethics program. On the
same date, the U.S. Department of Justice Civil Division filed a Settlement Agreement for Gallup to pay
the United States $10.5 million plus accrued interest at the rate of 1.75 percent, from February 13, 2013,
to the date of payment. The Mint will recover $3 million from the civil case.

Ongoing, Sophisticated Identity Theft Tax Refund Fraud Investigation Results in 8 Guilty Pleas this
Reporting Period

As reported in previous semiannual reports, our office initiated a multi-year joint investigation with the
IRS-Criminal Investigations Division, U.S. Postal Inspection Service, U.S. Secret Service, Social Security
Administration OIG, and U.S. Postal Service OIG into allegations concerning a group of more than 150
individuals connected to a massive and sophisticated identity theft tax refund fraud scheme involving
more than $50 million in fraud against the Treasury. Thus far, this investigation has resulted in 11 guilty
pleas, 2 arrests, and 1 sentencing.

Update: During this reporting period, 8 individuals pled guilty and 1 individual was sentenced to 27
months’ incarceration in federal prison, followed by 36 months’ supervised release, and was ordered to
make restitution in the amount of $435,764 to Treasury. More than 50 individuals have been referred to
and accepted for prosecution by the U.S. Attorney’s Office including bank tellers and U. S. Postal
Service employees with more to follow. One prominent subject in the conspiracy pled guilty and
admitted his role in attempting to steal more than $20 million from Treasury.

Investigation into Fraudulently Redirected Social Security Benefits Results in 2 Arrests

As reported in our March 2013 semiannual report, our office initiated a joint investigation with the
Social Security Administration OIG into allegations that social security benefits were being fraudulently


       Treasury Office of Inspector General Semiannual Report—September 2013                           27
                                             Office of Investigations – Significant Investigations

redirected to pre-paid debit cards. The joint investigation led to a search warrant being served on an
address that had received 17 fraudulently-obtained Direct Express pre-paid debit cards in 9 different
beneficiaries’ names. Subsequently, federal arrest warrants were obtained and executed on 2 individuals.

Update: During this reporting period, both individuals pled guilty and were sentenced in federal court.
One defendant was sentenced to serve 2 years in federal prison beginning on September 11, 2013,
followed by 1 year of supervised probation; and to pay restitution in the amount of $6,480. The second
defendant was sentenced to serve 10 months in federal prison followed by 1 year of supervised
probation and deportation to Jamaica upon completion of the sentence; and to pay restitution in the
amount of $6,480.

Investigation into Theft of Tax Refund Fraud and Theft of Treasury Checks Results in 12 Arrests

As reported in previous semiannual reports, an investigation in Atlanta and Macon, Georgia, led to the
execution of multiple federal and state search and arrest warrants during which more than 6,000 victims
of identity theft were identified along with an estimated $2.3 million in fraud against the federal
government.

Update: Since reporting this information, 7 of the subjects have been charged federally after initially
being charged with crimes at the state level. An additional subject has been sentenced to 19 months’
imprisonment, 36 months’ probation, and a $100 fine.

American Recovery and Reinvestment Act

In a previous reporting period, we received an allegation of misuse of grant funds under the American
Recovery and Reinvestment Act. We, along with other law enforcement entities, are investigating the
allegation pursuant to Section 1553 of the act. This investigation is ongoing, and the complainant has
agreed to a necessary time extension to carry out the investigation properly.




       Treasury Office of Inspector General Semiannual Report—September 2013                              28
Other OIG Accomplishments and Activity
CIGFO Working Group Audit of the Financial Stability Oversight Council’s Designation of Financial
Market Utilities

Dodd-Frank created, among other things, the Council of Inspectors General on Financial Oversight
(CIGFO) chaired by the Treasury Inspector General. One of CIGFO’s statutory functions is to provide
oversight of the Financial Stability Oversight Council (FSOC). Specifically, the law authorizes CIGFO
to convene working groups, by a majority vote, for the purpose of evaluating the effectiveness and
internal operations of FSOC. In early 2013, CIGFO convened a working group to examine FSOC’s
designation of financial market utilities (FMU) as systemically important. The Treasury Inspector
General led the working group in this examination.

As background, Title VIII of Dodd-Frank authorizes certain activities for FSOC to perform during the
FMU designation process. These activities include, among others, prescribing rules to administer
FSOC’s authority to designate FMUs as systemically important, requesting information from FMUs,
consulting with regulatory agencies, and providing FMUs with notice of final determination of
designation. To assist in carrying out the designation activities, FSOC created the Designations of
Financial Market Utilities and Payment, Clearing, and Settlement Activities Committee (FMU
Committee).

The CIGFO working group noted that the FMU Committee did not have a designated chairperson and
did not keep a record of its meetings. Overall, the CIGFO working group determined that FSOC carried
out the designation activities established in Title VIII. Additionally, the CIGFO working group found
that FSOC intends to rely on the designated FMUs’ regulators for ongoing reviews. At this time,
however, there is no agreement or process established in writing that defines the nature, frequency, and
communication of such updates.

The CIGFO working group also learned that during the FMU designation process, FSOC decided not
to consider for designation at this time, foreign-based FMUs; retail FMUs; or payment, clearing, and
settlement (PCS) activities conducted by financial institutions. However, deliberations continue within
FSOC regarding foreign-based FMUs and the designations of PCS activities. Additionally, since the
designation of eight FMUs in July 2012, FSOC has not conducted additional reviews of FMUs that may
be systemically important, nor has it established a schedule for doing so.

Because of the critical role the FMU Committee will likely play in the future, CIGFO recommended in
its July 2013 report on the working group review that FSOC establish a formal structure for the FMU
Committee. Additionally, CIGFO recommended that FSOC (1) determine a course of action with
regard to foreign-based FMUs consistent with the authorities of Title VIII of Dodd-Frank; (2) continue
deliberations on the process and rules regarding possible future designation of PCS activities conducted
by financial institutions as systemically important; (3) define the nature, frequency, and communication


       Treasury Office of Inspector General Semiannual Report—September 2013                         29
                                                        Other OIG Accomplishments and Activity

of updates on designated FMUs from the respective regulators of the FMUs; and (4) establish a timeline
for periodic reviews of non-designated FMUs that may be systemically important.

The working group participants were comprised of volunteers from the Offices of Inspector General
for FRB, Commodity Futures Trading Commission, FDIC, Federal Housing Finance Agency, National
Credit Union Administration, Securities and Exchange Commission, Treasury, and the Office of the
Special Inspector General for the TARP.

OIG Audit Leadership Roles

Treasury OIG’s audit professionals serve on various important public and private professional
organizations supporting the federal audit community. Examples of participation in these organizations
follow:

Marla Freedman, Assistant Inspector General for Audit, serves as co-chair of the Federal Audit
Executive Council’s (FAEC) Professional Development Committee. Bob Taylor, Deputy Assistant
Inspector General for Audit, also serves on this committee. Among other activities, the committee
completed a curriculum review on the Introductory Auditor Course offered by the Council of the
Inspectors General on Integrity and Efficiency (CIGIE) Training Institute’s Audit, Inspection &
Evaluation Academy. The committee also presented a white paper to the CIGIE Audit Committee and
representative of the Office of Personnel Management which analyzed the current GS-0511Auditor job
series.

Bob Taylor, Deputy Assistant Inspector General for Audit, and Kieu Rubb, Audit Director, made
presentations on external peer reviews of governmental audit organizations at the CIGIE Training
Institute and before representatives of the audit organizations of the Intelligence Community Inspectors
General.

Ms. Rubb is also leading an FAEC project to update the CIGIE Audit Committee’s external peer
review guide. Assisting her in this effort are Colleen McElwee, Audit Manager, and W. Michael
Wiley, Manager. The update is incorporating changes to the financial statement audit and attestation
engagement sections of the review guide that correspond to the standards in the 2011 Revision to
Government Auditing Standards.

Jeff Dye, Audit Director, regularly taught modules of the Introductory Auditor course sponsored by the
CIGIE Training Institute.

Mike Maloney, Audit Director, serves on the American Institute of Certified Public Accountants’
Governmental Accounting and Auditing Committee. The committee held its annual National
Governmental Accounting and Auditing Update Conference, in Washington, D.C., August 12-14, 2013.
Mr. Maloney moderated two sessions at the conference.




       Treasury Office of Inspector General Semiannual Report—September 2013                           30
                                                         Other OIG Accomplishments and Activity

Office of Investigations Case Management System Goes Paperless

During this semiannual reporting period, the Office of Investigations worked with the Office of
Management, the Office of Counsel, and Treasury’s Office of Privacy, Transparency, and Records to
ensure its investigative case management system, Investigation Management Information System (IMIS)
was properly scheduled and in compliance with Treasury policy and National Archives and Records
Administration requirements. As a result, the Office received approval to use IMIS as the sole repository
for its investigation case files and work product. The system replaces a paper tracking system and is
intended to reduce the Office’s paper usage by 50 percent, while increasing workflow and production.
To further support paper reduction, the Office of Investigations is working with Treasury bureaus,
developing protocols and procedures to electronically distribute IMIS work product (e.g., Reports of
Investigations, referral memoranda, and supporting material) to the bureaus.

Office of Counsel Investigates Allegation of Missed Ethics Training

During this semiannual reporting period, the Office of Counsel was tasked to investigate an allegation
filed with the U.S. Office of Special Counsel that a Treasury bureau failed to provide statutorily-required
ethics training to senior employees. Counsel confirmed the allegation, monitored resolution of the
problem, and prepared a report that the Deputy Secretary sent to the U.S. Office of Special Counsel,
resolving the matter.

Office of Management Stands Up In-House OIG Human Resource and Procurement Operations

To reduce costs and provide for improved service, the Office of Management transitioned OIG’s
procurement and human resources from the BFS Administrative Resource Center, setting up in-house
operations and developing specialized expertise. Effective April 1, 2013, all procurement functions are
handled by the OIG Contracting Officer, including developing policies and procedures and executing
contract awards. Human Resources services were transitioned in-house in two phases. Processing,
including promotions, reassignments, payroll, WebTA (Web Time and Attendance), and worker’s
compensation activities, moved in-house effective April 28, 2013. All staffing operations, including
recruitment and hiring, and oversight of the HR Connect System, moved in-house effective
July 23, 2013.

Continuing Professional Education Symposium

In August 2013, 112 staff members from the Office of Audit and the Office of SBLF Program
Oversight attended a biennial training symposium to meet Government Auditing Standards requirements for
continuing professional education. The training was provided by a vendor, selected through a
competitive bidding process, at the vendor’s Washington, D.C., metropolitan area locations. The
symposium included multiple training sessions over a 2-week period, and enhanced staffs’ knowledge in
the following areas: (1) planning and executing performance audits, (2) developing precise audit
objectives, (3) writing reports, (4) keeping audits on schedule, (5) refining forensic audit skills, and
(6) for new auditors, an introduction in government auditing.


       Treasury Office of Inspector General Semiannual Report—September 2013                           31
                                                                  Other OIG Accomplishments and Activity


The Office of Audit and Office of Investigation Present at the Fall 2013 Southeastern and Southwest
Intergovernmental Audit Forum

The Gulf Coast Restoration Audit Directorate together with the Office of Investigations presented,
After the Deepwater Horizon Oil Spill: Oversight of Funds from the Gulf Coast Ecosystem Restoration Trust Fund to
state and local auditors participating in the Southeastern and Southwest Intergovernmental Audit Forum
in Biloxi, Mississippi, September 16-18, 2013. The OIG presenters provided an overview of the
environmental and economic impact of the 2010 Deepwater Horizon spill on the Gulf Coast region and
discussed key provisions of the RESTORE Act to include the OIG’s audit and investigative oversight
responsibilities. This presentation was also given by Deborah Harker, Audit Director for the Office of
Audits' oversight of the RESTORE Act activities, to the Gulf Coast Ecosystem Restoration Council
comprised of six federal agencies and the five affected Gulf Coast states (Alabama, Florida, Louisiana,
Mississippi, and Texas). Contributors and participants from the Office of Audit included Donna
Joseph, Deputy Assistant Inspector General for Audit, Ms. Harker, Eileen Kao, Audit Manager,
Amni Samson, Audit Manager, Marco Uribe, Auditor, Eleanor Kang, Program Analyst, Dionne
Smith, Auditor, and Marvin Bickham, Senior Special Agent, from the Office of Investigations.




                     Pictured above are members of the Gulf Coast Restoration Audit Directorate.




        Treasury Office of Inspector General Semiannual Report—September 2013                                32
                                                      Other OIG Accomplishments and Activity

The Third Annual Treasury OIG Awards

On May 1, 2013, Treasury OIG held its third annual awards program in the Cash Room of the Treasury
Building. The program recognized the achievements and outstanding performance of OIG staff during
calendar year 2012. Presented were nine Individual Achievement Awards, nine Teamwork Awards to 37
individuals, four Customer Service Awards, and two Rookie Awards. Also awarded was the Inspector
General Leadership Award, the highest honor bestowed on an OIG employee.

Inspector General Eric Thorson presented awards to the following recipients:

                               Inspector General Leadership Award

                       Marla Freedman, Assistant Inspector General for Audit

                                  Individual Achievement Award

                 Amy Altemus, Ava Maria Davis, Lisa DeAngelis, Mike Fitzgerald,
           James Howell, Eileen Kao, Waleska McLellan, Andrew Morgan, and Sonja Scott

                               Intra-Component Teamwork Award

                        Housing and Economic Recovery Act Audit Team
               Jennifer Adamson, Shaneasha Edwards, John Gauthier, and Myung Han

                                     Debt Limit Audit Team
                        Jennifer Adamson, Susan Barron, and Kathryn Bustell

                            First CIGFO Working Group Audit Team
                        Theresa Cameron, Dana Duvall, and Patrick Gallagher

                            TNet Security Management Audit Team
                     Jason Beckwith, Tram Dang, Farbod Fakhrai, Don’te Kelley,
                             Rob Kohn, Jason Madden, and Mike Patel

                                   Gold Reserves Audit Team
                      Ade Bankole, Rafael Cumba, Rufus Etienne, Myung Han,
                      Robert Hong, Mark Levitt, Alicia Weber, and Catherine Yi

                                    Solyndra Audit Team
                  James Hodge, Donna Joseph, Nicholas Slonka, Erica Wardley, and
                                         Alicia Weber




       Treasury Office of Inspector General Semiannual Report—September 2013                   33
                                                  Other OIG Accomplishments and Activity

                 DO Network and System Security Audit Team
            Jason Beckwith, Tram Dang, Farbod Fakhrai, Don’te Kelley,
                         Larissa Klimpel, and Mike Patel

                        SBLF Dividend Rate Audit Team
          Joe Berman, Steve Encomienda, Shola Epemolu, Nicolas Harrison
                          William Malloy, and Anita Visser

                              SSBCI Funds Audit Team
          Safal Bhattarai, Nicolas Harrison, Andrew Morgan, and John Rizek

                             Customer Service Award

        Amy Altemus, Patricia Brown, Roderick Johnson, and Mark Ossinger

                                    Rookie Award

                           Robert Oliveri and Mike Patel




                            Pictured above is Marla Freedman receiving the
                              Inspector General Leadership Award from
                                      Inspector General Thorson




Treasury Office of Inspector General Semiannual Report—September 2013               34
Statistical Summary
Summary of OIG Activity
For the 6 months ended September 30, 2013

                                                                                   Number or
OIG Activity                                                                       Dollar Value
Office of Counsel Activity
Regulation and legislation reviews                                                                4
Instances where information was refused                                                           0
Office of Audit Activities
Reports issued and other products                                                                21
Disputed audit recommendations                                                                    0
Significant revised management decisions                                                          0
Management decision in which the Inspector General disagrees                                      0
Monetary benefits (audit)
Questioned costs                                                                         $30,893,814
Funds put to better use                                                                   $1,708,969
Revenue enhancements                                                                              $0
Total monetary benefits                                                                  $32,602,783

Office of SBLF Program Oversight Activities
Reports issued and other products                                                                 8
Disputed audit recommendations                                                                    0
Significant revised management decisions                                                          0
Management decision in which the Inspector General disagrees                                      0
Monetary benefits (audit)
Questioned costs                                                                           $392,782
Funds put to better use                                                                    $240,000
Revenue enhancements                                                                             $0
Total monetary benefits                                                                    $632,782

Office of Investigations Activities
Criminal and judicial actions (including joint investigations)
Cases referred for prosecution and/or litigation                                                 64
Cases accepted for prosecution and/or litigation                                                 36
Arrests                                                                                          14
Indictments/informations                                                                         24
Convictions (by trial and plea)                                                                  22




           Treasury Office of Inspector General Semiannual Report—September 2013                35
                                                                                    Statistical Summary


Significant Unimplemented Recommendations
For reports issued prior to October 1, 2012

The following list of OIG audit reports with unimplemented recommendations is based on information
in Treasury’s automated audit recommendation tracking system, which is maintained by Treasury
management officials.

Number            Date     Report Title and Recommendation Summary
OIG-06-030        05/06    Terrorist Financing/Money Laundering: FinCEN Has Taken Steps to Better Analyze
                           Bank Secrecy Act Data but Challenges Remain
                           FinCEN should enhance the current FinCEN database system or acquire a
                           new system. An improved system should provide for complete and accurate
                           information on the case type, status, resources, and time expended in
                           performing the analysis. This system should also have the proper security
                           controls to maintain integrity of the data. (1 recommendation)


OIG-11-036        11/10    Information Technology: Treasury is Generally in Compliance with Executive Order
                           13103
                           The Chief Information Officer should (1) revise Treasury Directive 85-02 to
                           (a) define authorized software more specifically, (b) require heads of bureaus
                           and offices to ensure that software in their inventory is on the Treasury list
                           of authorized software and remove it if it is not, (c) require the Chief
                           Information Officer to perform periodic audit checks to determine if the
                           bureaus and offices are only using software on the Treasury list of
                           authorized software, and (d) require the bureaus and offices to reconcile
                           their inventory with software license agreements rather than with software
                           purchases; (2) develop procedures to create and manage a list of approved
                           enterprise authorized software; and (3) ensure that bureaus remove
                           unauthorized software from Treasury systems. (3 recommendations)


OIG-12-010        11/11    Management Letter for the Audit of the Federal Financing Bank’s Fiscal Years 2011
                           and 2010 Financial Statements
                           Federal Financing Bank management should (1) implement controls to
                           ensure that all inputs for fair value calculations are approved and verified
                           and (2) check the accuracy of the automated calculations by re-performing
                           one fair value calculation for each type of transaction that is included in the
                           note disclosure. This could be done as part of the review and approval of


       Treasury Office of Inspector General Semiannual Report—September 2013                             36
                                                                                     Statistical Summary

                           the note disclosure. It should be noted that Treasury management reported
                           these recommendations as implemented in December 2012. The corrective
                           actions taken will be verified as part of the audit of the Federal Financing
                           Bank’s fiscal year 2013 financial statements. (2 recommendations)


OIG-12-054        5/12     Safety and Soundness: OCC’s Supervision of National Banks’ Foreclosure Practices
                           OCC should update the Mortgage Banking Comptroller’s Handbook to
                           provide a more complete coverage of key processes and risks in the
                           mortgage banking environment. (1 recommendation)


OIG-12-055        6/12     Safety and Soundness: In-Depth Review of the First National Bank of Davis, Davis,
                           Oklahoma
                           OCC should establish formal guidance to address OCC’s response to
                           investigations and requests for information from law enforcement agencies.
                           The guidance should address, for example, when examination procedures
                           should be expanded based on information provided by law enforcement
                           agencies as well as notification to OCC headquarters and OIG.
                           (1 recommendation)


OIG-12-076        9/12     Information Technology: Treasury’s Security Management of TNet Needs Improvement
                           The Treasury Chief Information Officer should ensure that (1) AT&T, in
                           accordance with Treasury Network (TNet) program management office
                           guidance, implements and documents all steps in the flaw remediation
                           process for TNet; (2) security patches are implemented within 36 hours of
                           availability in accordance with the contract; and (3) the TNet program
                           management office, in coordination with the contracting officer and
                           contracting officer’s representative, (a) review all security performance
                           measures in the contract, (b) negotiate with AT&T the terms for when
                           penalties are to be applied in the event a measure is not met, and (c) amend
                           the contract accordingly. (3 recommendations)



Summary of Instances Where Information Was Refused
April 1, 2013, through September 30, 2013

There were no such instances during this semiannual period.



       Treasury Office of Inspector General Semiannual Report—September 2013                                  37
                                                                                              Statistical Summary



Listing of Audit Products Issued
April 1, 2013, through September 30, 2013

Office of Audit
Safety and Soundness: OCC Identification of Emerging Risks, OIG-13-037, 4/9/2013

RESTORE Act: Treasury Missed Its Statutory Deadline for Establishing Procedures Governing RESTORE Act
Programs and Activities, OIG-13-038, 4/17/2013

Audit of the Office of D.C. Pensions’ Treasury Reconciliation Report for the Period October 1, 1997 through
December 31, 2007, OIG-13-039, 5/29/2013, $30,893,814 Questioned Cost

Treasury Needs Written Policies and Procedures for Its Oversight of the Housing Finance Agency Initiative,
OIG-13-040, 5/30/2013

Response to Inquiry Regarding TFM 8040.40 Cash Discounts, OIG-CA-13-008, 6/10/2013

Contract Audit: Crane & Co.’s Price Proposal in Response to Solicitation No. BEP-11-0004, OIG-13-041,
6/18/2013, $1,708,969 Funds Put to Better Use (Sensitive But Unclassified)

Community Development Financial Institutions Fund Implemented Corrective Actions to Address Contract and
Personnel Management Deficiencies, OIG-13-042, 6/27/2013

Safety and Soundness: Failed Bank Review of First East Side Savings Bank, Tamarac, Florida, OIG-13-043,
7/2/2013

Safety and Soundness: Failed Bank Review of First Federal Bank, Lexington, Kentucky, OIG-13-045, 7/31/2013

General Management: BEP’s Administration of the Burson-Marsteller Public Education and Awareness Contract Was
Deficient, OIG-13-046, 8/13/2013

Report on the Bureau of the Fiscal Service’s Administrative Resource Center Description of its Financial Management
Services and the Suitability of the Design and Operating Effectiveness of its Controls for the Period July 1, 2012, to
June 30, 2013, OIG-13-047, 8/27/2013

OIG-CA-13-009, 8/28/2013 (Classified Report on the Terrorist Finance Tracking Program)

Information Technology: Fiscal Year 2013 Audit of Treasury’s Federal Information Security Management Act
Implementation for Intelligence Systems, OIG-13-048, 8/29/2013, (Classified)

Safety and Soundness: Improvement Needed in OCC’s Oversight of Foreclosure-Related Consent Orders, OIG-13-049,
9/9/2013

         Treasury Office of Inspector General Semiannual Report—September 2013                                       38
                                                                                               Statistical Summary

Memorandum to the Inspector General of the Intelligence Community, OIG-CA-13-010, 9/18/2013 (Sensitive But
Unclassified)

Report on the Bureau of the Fiscal Service Trust Funds Management Branch’s Description of its Trust Funds
Management Processing Services and the Suitability of the Design and Operating Effectiveness of its Controls for the
Period August 1, 2012, to July 31, 2013, OIG-13-050, 9/23/2013

Report on the Bureau of the Fiscal Service Federal Investments Branch’s Description of its Investment/Redemption
Services and the Suitability of the Design and Operating Effectiveness of its Controls for the Period August 1, 2012, to
July 31, 2013, OIG-13-051, 9/23/2013

RESTORE Act: Treasury Needs to Establish Procedures to Expend and Invest Gulf Coast Restoration Trust Fund
Monies, OIG-13-052, 9/24/2013

Terrorist Financing/Money Laundering: FinCEN’s BSA IT Modernization Program Was Within Budget and on
Schedule But Users Suggest Enhancements, OIG-13-053, 9/25/2013

Status of the Transfer of Office of Thrift Supervision Functions, OIG-13-054, 9/26/2013

General Management: Treasury Has Policies and Procedures to Safeguard Classified Information But Implementation
Needs to be Improved, OIG-13-055, 9/27/2013

Office of SBLF Program Oversight
State Small Business Credit Initiative: Massachusetts’ Use of Federal Funds for Capital Access and Other Credit
Support Programs, OIG-SBLF-13-007, 5/14/2013, $200,000 Questioned Cost

State Small Business Credit Initiative: Alabama’s Use of Federal Funds for Capital Access and Other Credit Support
Programs, OIG-SBLF-13-008, 6/4/2013

State Small Business Credit Initiative: Missouri’s Use of Federal Funds for Other Credit Support Programs,
OIG-SBLF-13-009, 7/24/2013, $240,000 Funds Put to Better Use

Small Business Lending Fund: Accuracy of Fourth-Quarter 2012 Dividend Rate Adjustments, OIG-SBLF-13-010,
8/9/2013

State Small Business Credit Initiative: Washington’s Use of Federal Funds for Capital Access and Other Credit Support
Programs, OIG-SBLF-13-011, 8/15/2013, $5,779 Questioned Cost

Small Business Lending Fund: Reported SBLF Program Accomplishments Are Misleading Without Additional
Reporting, OIG-SBLF-13-012, 8/29/2013

State Small Business Credit Initiative: Kansas’ Use of Federal Funds for Other Credit Support Programs,
OIG-SBLF-13-013, 9/5/2013, $187,003 Questioned Cost


         Treasury Office of Inspector General Semiannual Report—September 2013                                         39
                                                                                                  Statistical Summary

Small Business Lending Fund: Accuracy of First-Quarter 2013 Dividend Rate Adjustments, OIG-SBLF-13-014,
9/27/2013

Council of Inspectors General on Financial Oversight Working Group
Audit of the Financial Stability Oversight Council’s Designation of Financial Market Utilities, 7/12/ 2013



Audit Reports Issued With Questioned Costs
April 1, 2013, through September 30, 2013

                                                                        Total         Total              Total
                                                                        No. of        Questioned         Unsupported
Category                                                                Reports       Costs              Costs
For which no management decision had been made by beginning of
reporting period                                                                  2           $225,326                 $0
Which were issued during the reporting period                                     4        $31,286,596                 $0
   Subtotals                                                                      6        $31,511,922                 $0
For which a management decision was made during the reporting period              3        $31,119,140                 $0
   Dollar value of disallowed costs                                               3        $31,119,140                 $0
   Dollar value of costs not disallowed                                           0                 $0                 $0
For which no management decision was made by the end of the reporting
period                                                                            3          $392,782                  $0
For which no management decision was made within 6 months of
issuance                                                                          0                $0                  $0




          Treasury Office of Inspector General Semiannual Report—September 2013                                    40
                                                                                                                   Statistical Summary


Audit Reports Issued With Recommendations That Funds Be Put to
Better Use
April 1, 2013, through September 30, 2013

                                                                 Total No.
                                                                 of                                                      Revenue
Category                                                         Reports             Total            Savings            Enhancement
For which no management decision had been made by
beginning of reporting period                                                       1        $21,000           $21,000                             $0
Which were issued during the reporting period                                       2     $1,948,969       $1,948,969                              $0
   Subtotals                                                                        3     $1,969,969       $1,969,969                              $0
For which a management decision was made during the
reporting period                                                                    1     $1,729,969       $1,729,969                              $0
   Dollar value of recommendations agreed to by
   management                                                                       1     $1,729,969       $1,729,969                              $0
        Dollar value based on proposed management action                            0             $0                 $0                            $0
        Dollar value based on proposed legislative action                           0             $0                 $0                            $0
   Dollar value of recommendations not agreed to by
   management                                                                       0             $0                 $0                            $0
For which no management decision was made by the end of
the reporting period                                                                2       $240,000         $240,000                              $0
For which no management decision was made within 6
months of issuance                                                                  0                                                              $0
A recommendation that funds be put to better use denotes funds could be used more efficiently if management took actions to implement and
complete the recommendation including: (1) reduction in outlays, (2) de-obligations of funds from programs or operations, (3) costs not incurred by
implementing recommended improvements related to operations, (4) avoidance of unnecessary expenditures noted in pre-award review of contract
or grant agreements, (5) any other savings which are specifically identified, or (6) enhancements to revenues of the federal government.




Previously Issued Audit Reports Pending Management Decisions
(Over 6 Months)
There are no previously issued audit reports pending management decisions for the reporting period.



Significant Revised Management Decisions
April 1, 2013, through September 30, 2013

There were no significant revised management decisions during the reporting period.




           Treasury Office of Inspector General Semiannual Report—September 2013                                                               41
                                                                                  Statistical Summary


Significant Disagreed Management Decisions
April 1, 2013, through September 30, 2013

There were no management decisions this reporting period with which the Inspector General was in
disagreement.



Peer Reviews
April 1, 2013, through September 30, 2013

Office of Audit and Office of SBLF Program Oversight

Audit organizations that perform audits and attestation engagements of federal government programs
and operations are required by Government Auditing Standards to undergo an external peer review every
3 years. The objectives of an external peer review are to determine, during the period under review,
whether, the audit organization’s system of quality control was suitably designed and whether the audit
organization was complying with its quality control system to provide the audit organization with
reasonable assurance that it was conforming to applicable professional standards. Federal audit
organizations can receive a peer review rating of pass, pass with deficiencies, or fail.

Our Office of Audit and Office of SBLF Program Oversight were not required to undergo an external
peer review during this reporting period and we did not perform any external peer reviews of other
federal audit organizations.

The most recent peer review of our offices was performed by the U.S. Agency for International
Development (USAID) OIG. In its report dated September 6, 2012, our audit organizations received a
pass rating for our system of quality control in effect for the year ended March 31, 2012. USAID OIG
did not make any recommendations. Our offices’ external peer review reports are available on the
Treasury OIG website.

Office of Investigations

CIGIE mandates that the investigative law enforcement operations of all OIGs undergo peer reviews
every 3 years to ensure compliance with (1) the council’s investigations quality standards and with (2) the
relevant guidelines established by the Office of the Attorney General of the United States.

Our Office of Investigations was not required to undergo a CIGIE peer review during this reporting
period. The most recent peer review of our office was performed in March 2011 by the Small Business
Administration OIG. We were found to be in compliance with all relevant guidelines and there are no
unaddressed recommendations outstanding from this review.


       Treasury Office of Inspector General Semiannual Report—September 2013                           42
 Bank Failures and Nonmaterial Loss Reviews
 We conducted reviews of 2 failed banks supervised by OCC with losses to the DIF that did not meet
 the definition of a material loss in the Federal Deposit Insurance Act. These reviews were performed to
 fulfill the requirements found in 12 U.S.C. § 1831o(k). The term “material loss” which, in turn, triggers
 an MLR be performed is, for 2012 and 2013, a loss to the DIF that exceeds $150 million; and, for 2014
 going forward, a loss to the DIF that exceeds $50 million (with provisions to increase that trigger to a
 loss that exceeds $75 million under certain circumstances).

 For losses that are not material, the Federal Deposit Insurance Act requires that each 6-month period,
 the OIG of the federal banking agency must (1) identify the estimated losses that have been incurred by
 the DIF during that 6-month period and (2) determine the grounds identified by the failed institution’s
 regulator for appointing the FDIC as receiver, and whether any unusual circumstances exist that might
 warrant an in-depth review of the loss. For each 6-month period, we are also required to prepare a
 report to the failed institutions’ regulator and the Congress that identifies (1) any loss that warrants an
 in-depth review, together with the reasons why such a review is warranted and when the review will be
 completed; and (2) any losses where we determine no in-depth review is warranted, together with an
 explanation of how we came to that determination. The table below fulfills this reporting requirement to
 the Congress for the 6-month period ended September 30, 2013. We issue separate audit reports on
 each review to OCC.

Bank Failures and Non Material Loss Reviews
                                                                                          Reason/
                         Date                                                             Anticipated
                         Closed/          OIG Summary of                  In-Depth        Completion Date
Bank                     Loss to the      Regulator’s Grounds             Review          of the In-Depth
Name/Location            DIF              for Receivership                Determination   Review
First Federal Bank       April 19, 2013   • Dissipation of assets or      No              No unusual circumstances
Lexington, Kentucky      $9.7 million       earnings due to unsafe or                     noted
                                            unsound practices
                                          • Unsafe or unsound condition
                                          • Capital impaired

Mountain National Bank   June 7, 2013     • Dissipation of assets or      No              No unusual circumstances
Sevierville, Tennessee   $33.5 million      earnings due to unsafe or                     noted
                                            unsound practices
                                          • Unsafe or unsound condition
                                          • Capital impaired




            Treasury Office of Inspector General Semiannual Report—September 2013                            43
References to the Inspector General Act
   Section                                                   Requirement                                                        Page
Section 4(a)(2)    Review of legislation and regulations                                                                             35
Section 5(a)(1)    Significant problems, abuses, and deficiencies                                                                  5-28
Section 5(a)(2)    Recommendations with respect to significant problems, abuses, and deficiencies                                  5-28
Section 5(a)(3)    Significant unimplemented recommendations described in previous semiannual reports                             36-37
Section 5(a)(4)    Matters referred to prosecutive authorities                                                                       35
Section 5(a)(5)    Summary of instances where information was refused                                                                37
Section 5(a)(6)    List of audit reports                                                                                          38-40
Section 5(a)(7)    Summary of significant reports                                                                                  5-28
Section 5(a)(8)    Audit reports with questioned costs                                                                               40
Section 5(a)(9)    Recommendations that funds be put to better use                                                                   41
Section 5(a)(10)   Summary of audit reports issued before the beginning of the reporting period for which no management              41
                   decision had been made
Section 5(a)(11)   Significant revised management decisions made during the reporting period                                           41
Section 5(a)(12)   Management decisions with which the Inspector General is in disagreement                                            42
Section 5(a)(13)   Instances of unresolved Federal Financial Management Improvement Act noncompliance                                  16
Section 5(a)(14)   Results of peer reviews conducted of Treasury OIG by another OIG                                                    42
Section 5(a)(15)   List of outstanding recommendations from peer reviews                                                               42
Section 5(a)(16)   List of peer reviews conducted by Treasury OIG, including a list of outstanding recommendations from those          42
                   peer reviews
Section 5(d)       Serious or flagrant problems, abuses, or deficiencies                                                           N/A
Section 6(b)(2)    Report to Secretary when information or assistance is unreasonably refused                                       37




           Treasury Office of Inspector General Semiannual Report—September 2013                                                  44
Abbreviations
BEP                 Bureau of Engraving and Printing
BFS                 Bureau of the Fiscal Service
BSA                 Bank Secrecy Act
BSA IT Mod          BSA IT Modernization
CIGFO               Council of Inspectors General on Financial Oversight
CIGIE               Council of the Inspectors General on Integrity and Efficiency
Council             Gulf Coast Ecosystem Restoration Council
DIF                 Deposit Insurance Fund
Dodd-Frank          Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010
EADR                effective annual discount rate
ECC                 Eagle Cash Card
FDIC                Federal Deposit Insurance Corporation
FinCEN              Financial Crimes Enforcement Network
FMU                 financial market utilities
FMU Committee       Designations of Financial Market Utilities and Payment, Clearing, and Settlement
                    Activities Committee
FRB                 Board of Governors of the Federal Reserve System
FSOC                Financial Stability Oversight Council
HERA                Housing and Economic Recovery Act of 2008
HFA                 Housing Finance Agency
IFR                 independent foreclosure review
IMIS                Investigation Management Information System
IRS                 Internal Revenue Service
IT                  information technology
MLR                 material loss review
MTC                 Director of the Missouri Technology Corporation Board
NIBP                New Issue Bond Program
OCC                 Office of the Comptroller of the Currency
OIG                 Office of Inspector General
OTS                 Office of Thrift Supervision
Plan                Joint Implementation Plan
PCS                 payment, clearing, and settlement
RESTORE Act         Resources and Ecosystems Sustainability, Tourist Opportunities, and Revived
                    Economies of the Gulf Coast States Act of 2012
SBLF                Small Business Lending Fund
SSBCI               State Small Business Credit Initiative
TARP                Troubled Asset Relief Program
TCLP                Temporary Credit and Liquidity Program
TFM                 Treasury Financial Manual
TIPPS               Treasury Information Processing Support Services
TNet                Treasury Network
Trust Fund          Gulf Coast Restoration Trust Fund

      Treasury Office of Inspector General Semiannual Report—September 2013                     45
This page intentionally left blank
Meet Our Docents




Representing Treasury History
Shown from the left are Treasury Office of Inspector General employees W. Michael Wiley,
Manager of Audit Operations; Kieu Rubb, Director for Procurement and Manufacturing Audit
Directorate; and Jim Lisle, Audit Manager for Banking Safety and Soundness Audit Directorate;
who frequent the halls of the Treasury Building in Washington, D.C., as docents. Our volunteers
proudly demonstrate their mastery of Treasury’s history—regaling tour groups on the splendor of
the artwork adorning its walls, transporting guests with stories from Treasury past, and educating
visitors on the important role Treasury played, and still plays today, in our Nation’s rich tapestry.
Sponsored by the Treasury’s Office of the Curator, volunteers shadow experienced docents for 3
months and are then paired with another docent to direct the tours.
While on tour, our docents have met direct descendants of the first Treasury Secretary, Alexander
Hamilton.
The Office of Inspector General wishes to thank its docent program volunteers for representing
our office and for helping to preserve Treasury’s cultural heritage.
 contact us
Office of Inspector General
1500 Pennsylvania Avenue, N.W.
Room 4436
Washington, D.C. 20220
Phone: (202) 622-1090;
Fax: (202) 622-2151

Office of Small Business Lending
Fund Program Oversight
1425 New York Avenue, Suite 2131
Washington, D.C. 20220
Phone: (202) 622-1090;
Fax: (202) 927-5421

Office of Audit
740 15th Street, N.W., Suite 600
Washington, D.C. 20220
Phone: (202) 927-5400;
Fax: (202) 927-5379

Office of Investigations
1425 New York Avenue, Suite 5041
Washington, D.C. 20220
Phone: (202) 927-5260;
Fax: (202) 927-5421

Office of Counsel
740 15th Street, N.W., Suite 510   Treasury OIG Hotline
Washington, D.C. 20220
Phone: (202) 927-0650;             Call Toll Free: 1.800.359.3898
Fax: (202) 927-5418

Office of Management               OIG reports and other information are available
740 15th Street, N.W., Suite 510   via Treasury OIG’s website
Washington, D.C. 20220
Phone: (202) 927-5200;
Fax: (202) 927-6492

Boston Audit Office
408 Atlantic Avenue, Room 330
Boston, Massachusetts 02110-3350
Phone: (617) 223-8640;
Fax: (617) 223-8651
